<html>
<title> - EXAMINING THE DEPARTMENT OF THE INTERIOR'S LAND BUY-BACK PROGRAM FOR TRIBAL NATIONS, FOUR YEARS LATER</title>
<body><pre>[Senate Hearing 114-536]
[From the U.S. Government Publishing Office]









                                                        S. Hrg. 114-536

                    EXAMINING THE DEPARTMENT OF THE 
 INTERIOR'S LAND BUY	BACK PROGRAM FOR TRIBAL NATIONS, FOUR YEARS LATER

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 7, 2016

                               __________

         Printed for the use of the Committee on Indian Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

23-536 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






















                      COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Anthony Walters, Minority Staff Director and Chief Counsel
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 7, 2016.................................     1
Statement of Senator Barrasso....................................     1
Statement of Senator Daines......................................     4
Statement of Senator Heitkamp....................................     7
Statement of Senator Lankford....................................    38
Statement of Senator Tester......................................     2
Statement of Senator Udall.......................................     5

                               Witnesses

Azure, Hon. Floyd, Chairman, Assiniboine and Sioux Tribes, Fort 
  Peck Reservation...............................................    14
    Prepared statement...........................................    16
Cobell, Turk, Treasurer, Cobell Board of Trustees................    22
    Prepared statement...........................................    24
Connor, Hon. Michael L., Deputy Secretary, U.S. Department of the 
  Interior.......................................................     7
    Prepared statement...........................................     9
Monette-Barajas, Melvin, President/Executive Director, Indigenous 
  Education, Inc.................................................    25
    Prepared statement...........................................    26
Tatsey, Hon. Terry, Vice-Chairman, Blackfeet Nation..............    20
    Prepared statement...........................................    21

                                Appendix

Burke, Hon. Gary, Chairman, Board of Trustees, Confederated 
  Tribes of the Umatilla Indian Reservation, prepared statement..    41
Franken, Hon. Al, U.S. Senator from Minnesota, prepared statement    41
McClanahan, John H., Director, Land Buy-Back Program for Tribal 
  Nations, letter................................................    48
Onnen, Hon. Liana, Chairwoman, Prairie Band Potawatomi Nation, 
  prepared statement.............................................    45
Weston, Hon. Troy Scott, President, Oglala Sioux Tribe, prepared 
  statement......................................................    43
 
                    EXAMINING THE DEPARTMENT OF THE 
 INTERIOR'S LAND BUY-BACK PROGRAM FOR TRIBAL NATIONS, FOUR YEARS LATER

                              ----------                              


                      WEDNESDAY, DECEMBER 7, 2016


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Barrasso, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    The Chairman. I call this oversight hearing to order. Let 
me welcome everyone back.
    Today's hearing will focus on the Department of Interior's 
Land Buy-Back Program, including the Cobell Scholarship Fund.
    In 2010, Congress passed, and the President signed into 
law, the Claims Resolution Act of 2010. The title in this Act, 
the Individual Indian Money Account Litigation Settlement, 
authorized and ratified the Cobell settlement agreement. The 
purpose of the settlement was to resolve a class action lawsuit 
regarding the Federal Government's accounting and management of 
over 300,000 individual Indian Trust accounts.
    The settlement agreement established and deposited $1.9 
billion into the Trust Land Consolidation Fund. Those funds are 
to be expended during the ten-year period from 2012 to 2022.
    Additionally, the settlement agreement established the 
Indian Education Scholarship Fund, with funds to be transferred 
from the Trust Land Consolidation Fund of up to $60 million.
    On December 17th, 2012, the Land Buy-Back Program for 
Tribal Nations was established through a secretarial order.
    The Land Buy-Back Program implements the land consolidation 
component of the Cobell settlement by purchasing fractional 
land interests from willing sellers and then holding those 
newly purchased lands in trust for the respective Indian 
Tribes.
    According to the Department of interior, there are 
approximately 243,000 owners of nearly 3 million fractional 
interests in 150 Indian Reservations. Approximately 90 percent 
of those interests are located within 50 Indian Reservations.
    The settlement also establishes an account called the 
Indian Education Scholarship Holding Fund. These funds are to 
be used to provide financial assistance to Native American 
students to defray the cost of attendance at both post-
secondary vocational schools and institutions of higher 
education. Contributions to this fund are allocated by a 
formula from the Trust Land Consolidation Fund.
    Last month, the Interior Department released its annual 
status report on the Land Buy-Back Program. The report 
highlights many statistics and informs us that approximately 
$900 million of the $1.9 billion has been paid to 45,600 
individuals to consolidate 1.7 million acres during the last 
four years.
    The report also suggests that despite the efforts of the 
Land Buy-Back Program, the $1.9 billion provided in the 
settlement was not enough. There is a floor chart that is 
available for people to take a look at. In fact, the report 
states and illustrates with these graphs that you can see that, 
after the Land Buy-Back Program ends in 2022, the estimated 
growth of fractional interests will return to pre-Program 
levels and continue to grow.
    Today's witnesses will help us determine the success and 
effectiveness of the Land Buy-Back Program at its four-year 
anniversary and should assist in the incoming Trump 
Administration in considering this Program's viability.
    Before I turn to the Vice Chairman for an opening 
statement, I want to first acknowledge Senator Tester's 
contribution to the Committee as both Chairman and Vice 
Chairman. I understand Senator Udall will be incoming Vice 
Chairman in the 115th Congress.
    When Senator Tester was chairman of the Committee, we had a 
good working relationship. When the roles switched, we 
continued to have a good working relationship in a bipartisan 
fashion. Nothing changed.
    Let me say that in the few times we might have disagreed on 
policy, we always agreed on the goal, and that was bettering 
the lives of Tribal communities. We never lost focus, nor did 
we waiver.
    So I want to personally thank you, Senator Tester, for your 
leaderships, your dedication to Indian Country. I want to also 
include the same thanks to your staff.
    So, Senator Tester, an opening statement.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Well, thank you, Chairman Barrasso. Thank 
you for those kind remarks. And I want to echo those back to 
you. I think you are going to be moving on to a different 
committee as chairman this next Congress. I just want to thank 
you for your straightforwardness, your ability to be able to 
get things done on behalf of Indian Country, and, quite 
frankly, the, I think, honest communication that we have had. 
When we disagreed, we disagreed, but we weren't disagreeable. 
So thank you for that. And I too want to thank your staff for 
their good work. They have been very easy to work with and we 
thank you for that.
    I want to thank you for holding this hearing, because I 
think the last hearing we had on the Land Buy-Back Program was 
two years ago, so I am looking forward to hearing about what 
progress has been made in the last couple years. Land 
fractionation is a serious issue plaguing Indian Country, and I 
am glad to see this Committee's continued commitment to address 
it.
    Before I go any further, though, I want to acknowledge the 
work of Elouise Cobell. Two weeks ago she was awarded, 
posthumously, the Presidential Medal of Freedom, and she could 
not have been more deserving. We would not be talking here 
today about the success of a land consolidation program or 
giving millions of dollars in scholarship to Native youth if it 
wasn't for her decades-long fight.
    Her son Turk is here testifying in his capacity as board 
member of the Cobell Scholarship Fund, so I do want to 
congratulate Elouise's family on her award and thank Turk for 
carrying on her legacy through your hard work helping Native 
students across the Country.
    As a result of Elouise's efforts in the Cobell settlement, 
the Buy-Back Program has already been great sized in Indian 
Country. Since its start four years ago, the Program has paid 
out over $900 million to individual landowners with fractional 
interests in land on 30 reservations, restored nearly 1.7 
million acres of land to Tribal Nations, and the Program still 
plans to reach 105 additional locations over the next five 
years.
    Addressing the problem of land fractionalization is an 
important step for Indian Country. By returning these lands to 
Tribes, the Land Buy-Back Program has helped Tribal Governments 
in a number of ways, including addressing jurisdictional 
issues, protecting cultural and natural resources, and 
developing infrastructure and businesses.
    The Program has also provided vital funding to the Cobell 
Scholarship Fund, which has already helped hundreds of Native 
students help pay for post-secondary education. In Montana 
alone, 146 Native students have received a total of $369,000 in 
the Scholarship's first year. I have always believed that 
education is a foundation for the future of Indian Country, and 
I look forward to hearing more about this work from Turk and 
Mr. Monette.
    Despite these successes, we have heard some concerns from 
Tribes. The Land Buy-Back Cooperative Agreement process can be 
cumbersome and doesn't allow for a lot of flexibility for 
Tribes. Many Tribes are interested in when and how the Program 
can continue in their communities even after its initial run.
    So I hope the discussion today highlights the good work 
that has occurred thus far and identifies opportunities to 
improve it. There is no question that more can be done with 
this Program to address land fractionation in Indian Country.
    I would like to welcome Chairman Azure of the Fort Peck 
Reservation. Good to have you here. Vice Chairman Tatsey from 
the Blackfeet for sharing their thoughts on the Land Buy-Back 
Program. I know Fort Beck has had a few hiccups with the 
program, but overall was able to consolidate over $78 million 
in fractionated lands. And Blackfeet offers totaling over $270 
million have just gone out. I understand everyone has high 
expectations due to the level of outreach conducted by the 
Blackfeet Tribal members. So I want to commend you both for 
your traveling here today to testify and for all your service 
to tribal communities.
    Finally, as I talked about in the opening, and as the 
Chairman talked about in his closing, I know everyone is aware 
that in the next Congress I am going to be taking over Ranking 
Member of the Veteran Affairs Committee. I want to assure 
everybody that I am going to remain engaged in tribal issues 
just as I have in the past. As was pointed out, Senator Udall 
will have this seat next Congress and will do a fine job in 
that capacity. But I am going to remain a member of this 
Committee and an active one.
    There is a whole lot of work that needs to be done for 
Indian Country, and I am committed to make sure the Tribes 
across Montana and across this Country have their voices heard 
and that we continue to improve and uphold the trust and treaty 
obligations that we have. So I look forward to working with my 
colleagues when this Committee convenes in January.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Tester.
    Senator Daines?

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Chairman Barrasso and Ranking 
Member Tester.
    I would like to wish a very warm welcome to two Montana 
Tribal leaders we have with us today. I had a chance to see 
both of them in my office here this morning, Chairman Floyd 
Azure of the Fort Peck Tribes and Vice Chairman Terry Tatsey of 
Blackfeet Nation.
    It is certainly a rare occasion that we have two Montanans 
at the witness table and we have two Montanans here on the 
dais. I think we are heading in the right direction with more 
Montanans ever here on Capitol Hill.
    Let me brag a little bit about our two witnesses. Chairman 
Azure was selected to his current term of office in October 
2015 and previously served as chair from 2009 to 2012. He also 
served on the Tribal Executive Board prior to that. Chairman 
Azure was raised on the Fort Peck Indian Reservation. He owns 
and operates an auto body repair shop in Poplar, Montana.
    Vice Chairman Tatsey was elected to the Blackfeet Tribal 
Council just this past June. From 1993 until last year he 
served as Director of Institutional Development of Blackfeet 
Community College, where he developed educational programs and 
helped build many of the school's facilities. Prior to service 
to the college, he worked as a rancher for about six years, and 
prior to that he worked at the USDA in a research partnership 
with AGCanada, as well as the Blackfeet Tribe.
    It was also a pleasure to visit with both of you and your 
fellow Tribal members on your reservations this past summer. 
When we were back home during the summer work period, I spent 
time on both your reservations.
    Chairman Azure and Vice Chairman Tatsey, it is truly an 
honor to have you here in Washington, D.C. today. Thanks for 
making the long trip out.
    Well, Montana is home to 12 federally recognized Indian 
Tribes and also the State recognized Little Shell Tribe. We 
have seven Indian reservations, which are some of the most 
fractionated in our Nation.
    Montana was also home to Elouise Cobell, a member of the 
Blackfeet Nation, of course, who initiated that settlement, the 
famous Cobell-Salazar class action lawsuit on behalf of herself 
and nearly 500,000 fellow Native Americans which resulted in 
the establishment of the Land Buy-Back Program. As we know, she 
is the namesake of the Cobell Scholarship Fund.
    As Senator Tester mentioned earlier, consolidating 
fractionated trust lands is critical to economic prosperity on 
Indian reservations and eradicating these outdated remnants of 
the allotment era. While not perfect, the Land Buy-Back Program 
has benefitted a majority of Montana's seven Indian 
reservations. I look forward to the witness testimonies and 
today's discussion.
    Lastly, I do want to express my gratitude to Chairman 
Barrasso, Vice Chairman Tester for their service to this 
Committee and this Congress. I think you both have been great 
leaders in moving this Committee along very efficiently and 
effectively. I know it is the last Committee hearing we are 
going to have this year, and I wish you two the very best here 
in your new responsibilities.
    The Chairman. Thank you very much, Senator Daines.
    Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much. I just want to echo the 
remarks that others have made, Chairman Barrasso and Vice 
Chairman Tester. The good work you have done, the 
bipartisanship, the way you have worked together. And it didn't 
matter whether one was in the chairman or in the vice chairman; 
you just continued to work in a really positive way for Indian 
Country.
    So I thank you very much for that, and I know that Native 
Americans across the Country feel very good about that. And I 
also thank you for your kind comments about me assuming the 
chair. We are going to miss you. We didn't say whether you are 
staying on the Committee, Mr. Chairman, but we hope you are.
    The Chairman. I look forward to staying on the Committee, 
Senator Udall, and serving with you.
    Senator Udall. Good.
    The Chairman. Thank you very much.
    Senator Udall. Good. Well, we look forward to that.
    I would like to briefly recognize a couple of New Mexicans 
on today's panel. Welcome to Mr. Melvin Monette and Deputy 
Secretary Mike Connor. Mr. Monette has been a tireless advocate 
for Indian education for many years, and we appreciate you 
sharing your valuable input here today.
    And this is likely Deputy Secretary Mike Connor's final 
hearing before this Committee, at least as part of the current 
administration. I want to thank you for your outstanding 
service as Commissioner of the Bureau of Reclamation and as 
Deputy Secretary. You also served many years with Senator 
Bingaman on the Committee, so you are someone who really knows 
how Washington works and I hope that works for you.
    New Mexico is very proud of you, Mike Connor, and we 
appreciate all of your service. And I want to recognize that 
you have been a tireless advocate for Indian Country. Some of 
the most challenging issues at the Department have landed on 
your plate.
    I want to single out your work on the complex issue of oil 
and gas development around Chaco Canyon. Chaco Canyon, as you 
know, is a major center of ancient Pueblo culture, rich in 
archeology. Many of the Tribes of the Southwest have ancient 
ties to this sacred area. And I appreciate you accompanying me 
there to Chaco to meet with key stakeholders, and I appreciate 
your efforts to incorporate the Bureau of Indian Affairs in the 
resource management planning process.
    The Dakota Access Pipeline has shined a light on the 
importance and necessity of tribal consultation. Tribal 
consultation must be conducted in the right way and at the 
right time in order to foster cooperation and avoid conflict. 
Tribes are sovereign entities; they have the right of 
significant input on development impacting their land, their 
resources, their sacred sites. Chaco Canyon is a sacred site 
for Tribes and it is an important site for New Mexicans and all 
Americans. Resource development around Chaco deserves careful 
consideration.
    I know you understand and appreciate the need of meaningful 
consultation, and I would like to take this opportunity also to 
discuss the Dakota Access Pipeline and the need for meaningful 
tribal consultation. I appreciate that there is a range of 
views on the pipeline within this Committee. For my part, I 
support the Administration's recent action to deny the current 
route and evaluate other alternatives. The events that have 
unfolded in North Dakota should serve as a wakeup call to us.
    In response to concerns raised by Tribes about the 
pipeline, the Administration held formal government-to-
government consultation with Native Americans throughout the 
Country and came to Albuquerque, New Mexico. We had a very good 
session there. If we need congressional action to reform 
current law, I am all ears on what it is and would love to hear 
about that. And I look forward to working with my colleagues on 
this Committee to improve the consultation process.
    Finally, I believe the Buy-Back Program has great potential 
to help Tribes protect cultural and natural resources, and I 
believe it can help improve services to tribal members.
    Since December 2013, the Federal Government has paid 
approximately $900 million to individual landowners and has 
restored in trust the equivalent of nearly $1.7 million acres 
to the Tribes. This has major implications for the Tribes in my 
State, including the Pueblos of Laguna and Zuni, and especially 
the Navajo Nation, which has a large land base and many private 
land inholdings that are potential candidates for buy-backs.
    I Look forward to hearing from today's witnesses how the 
Buy-Back Program is working and how we can improve on it.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Senator Udall.
    Senator Heitkamp?

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Mr. Chairman. I feel somewhat 
obligated to say something nice about Jon Tester, but it is 
getting harder every day.
    I think during the transition I think I tried to make you 
chairman of the Committee, didn't I? I think I made a motion 
back in the day to make him chairman. I do apologize; it was a 
grave error on my part and a failure of judgment to do that.
    No, in all seriousness, the Chairman has stated the 
workings of this Committee pretty well; that we all come 
together with one common purpose and in consultation with very 
many witnesses. Senator Tester and I share a lot of 
commonalities in terms of representing Great Plains Indians, 
and some of the greatest challenges that we have are with the 
large land tribes maintaining services, but also making sure 
that our children have an opportunity for education, an 
opportunity for betterment. I know that that we will, under new 
leadership in this Committee, we will continue to advance the 
cause of Native children and advance the cause of Native 
people, and understand that we are all together.
    I can't go with the member from New Mexico, our Senator 
from New Mexico, taking credit for Melvin Monette. He is a 
member of the Turtle Mountain Band of Chippewa and educated in 
UND in North Dakota, and we are very, very proud of the work 
that you do every day to advance the cause of Indian education, 
Melvin. So thank you. I just wanted to make sure that everybody 
knew he was from North Dakota, and not New Mexico.
    The Chairman. Thank you for that clarification, Senator 
Heitkamp.
    Now is the time to turn to the witnesses. I do want to 
remind the witnesses your full written testimony will be made a 
part of the official hearing record today, so please keep your 
statements to five minutes, so that we may have time for 
questions. I look forward to hearing your testimony, beginning 
with Deputy Secretary Connor.

  STATEMENT OF HON. MICHAEL L. CONNOR, DEPUTY SECRETARY, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Connor. Mr. Chairman, Ranking Member Tester, and 
members of the Committee, thank you for the opportunity to 
provide an update on the Land Buy-Back Program for Tribal 
Nations.
    I am incredibly proud to have served in an administration 
that has made great progress in improving the government-to-
government relationship with sovereign Indian Nations and 
significantly improving how the Federal Government fulfills its 
trust responsibility to Native people.
    One aspect of the progress made over the last eight years 
has been in restoring tribal homelands. The Land Buy-Back 
Program is a successful part of that legacy and I would like to 
briefly highlight the Program's accomplishments, its 
implementation schedule, and the need to work with the 
Committee and Indian Country on long-term solutions to 
fractionation.
    In 2010, as mentioned, Congress enacted the Claims 
Resolution Act to ratify and confirm the historic 2009 Cobell 
Settlement Agreement. The Act provided a $1.9 billion trust 
fund for the Land Consolidation Fund to compensate individuals 
who willingly choose to transfer fractional land interests to 
Tribal Nations at fair market value.
    Less than a month following final approval of the 
settlement, in 2012, Interior established the Buy-Back Program 
to work collaboratively across Indian Country with both Tribes 
and Individuals to realize this historic opportunity. I am 
pleased to report that the Buy-Back Program is making 
significant progress in accomplishing its goals.
    Since it began making offers in December 2013, the Program 
has paid more than $925 million to individual landowners and 
restored the equivalent of nearly 1.7 million acres of land to 
Tribal Governments. To date, we are four years into a ten-year 
program, we have spent 60 percent of the fund for land 
acquisition activities, and we have only expended 22 percent of 
the resources available for administrative costs. We are proud 
of that record.
    The Program has relied on significant cooperative efforts 
both internally within the Department and with Indian Country 
in achieving these results. It is important to recognize that 
our government-to-government working relationship with Tribes 
has led directly to the Program's successes so far. The Program 
works with Tribes to tailor the implementation strategy at each 
location, including partnering with Tribes through agreements 
and sharing mapping and other information with Tribes.
    Also, by aligning Program resources with Tribal goals and 
acquisition priorities at each location, we are upholding and 
respecting Tribal sovereignty and self-determination in a 
meaningful way. We have created or increased Tribal ownership 
in more than 30,000 tracts of land. In fact, we brought Tribal 
ownership to greater than 50 percent in more than 11,000 
tracts, consisting of nearly 1.8 million total acres, through 
the last fiscal year.
    For example, the Program has helped achieve a nearly 300 
percent increase in tracts with greater than 50 percent Tribal 
ownership at the Fort Belknap Reservation of Montana. We are 
already seeing the impact that the Program is having on Tribal 
communities, and our 2016 status report highlights initiatives 
that Tribes are undertaking with consolidated lands, such as 
economic development, housing, and cultural preservation.
    The Program has actively gathered input from Tribal 
Governments and landowners to determine its implementation 
schedule, which now includes 105 locations where activities 
will begin by 2021. These locations represent nearly all 
eligible landowners' fractional interests and equivalent acres.
    Some Tribes on our schedule have expressed concern that the 
Program's success means that funds would not be available to 
make offers at their location. I want to allay this concern by 
emphasizing that the Program is managing resources in a manner 
that ensures that funds will be available at a minimum for 
those 105 locations we have already announced.
    Let me talk about future work to address fractionation. 
Approximately 90 million acres of Indian Trust land base were 
lost in 1934 because of the Federal allotment policies that 
were initiated in 1887. This is an amount larger than the great 
State of New Mexico.
    Fractionation now affects nearly 11 million tract acres of 
remaining allotted land across Indian Country, locking up a 
significant area and creating an overly complicated land tenure 
status where single tracts of land, like several at Crow Creek 
or Navajo, have more than 1,200 landowners. Even with the 
Program's significant progress to date and the results expected 
through 2022, fractionation will continue to be an extremely 
complicated, ongoing challenge in the long term. We estimate 
that more than 4 million equivalent acres may still exist after 
the consolidation fund is fully expended in 2022, given that 
fractionation continues to grow each and every day.
    This past spring, Secretary Jewell directed the Program's 
Oversight Board to pursue an analysis of options to extend the 
life of the Program so that additional future participants may 
benefit and so the Program could return to locations where 
implementation has already occurred. Preliminary ideas for 
discussion with Indian Country at Interior's next Listening 
Session include options for potentially continuing the Program 
and other policy changes.
    We are seeking to be transparent by showing our significant 
results to date in the context of the estimated breath of 
fractionation in the long-term. We are also looking to pursue 
much-needed conversations with Congress and with Indian Country 
about how we can work together for a longer-term solution, and 
our analysis helps show how important it is to remain focused 
on addressing fractionation to preserve trust land for future 
generations.
    Thank you for the opportunity. I look forward to your 
questions.
    [The prepared statement of Mr. Connor follows:]

 Prepared Statement of Hon. Michael L. Connor, Deputy Secretary, U.S. 
                       Department of the Interior
Introduction
    Good afternoon, Chairman Barrasso, Ranking Member Tester, and 
Members of the Committee. Thank you for the opportunity to provide an 
update on the Land Buy-Back Program for Tribal Nations (Buy-Back 
Program or Program) on behalf of the Department of the Interior.
    I am pleased to report that the Buy-Back Program has made 
significant progress since I last provided testimony to the Committee. 
I appreciate the continued interest of the Committee and the active 
engagement the Program has had with Committee staff over the last 
several years.
    The Buy-Back Program is currently completing its fourth calendar 
year. The first year was largely focused on planning, consultations, 
research, analysis, and one-on-one engagement with tribal leaders and 
individuals. This was a critical effort that has directly led to the 
significant success we have seen in just a short time. The Program thus 
far has made more than $2.5 billion in offers to nearly 123,000 unique 
individuals--half of all eligible landowners--for interests at 34 
locations. And since it began making those offers in December 2013, the 
Program has paid more than $925 million to individual landowners and 
restored the equivalent of almost 1,700,000 million acres of land to 
tribal governments.
    At the end of fiscal year 2016, tribal ownership was greater than 
50 percent in more than 11,000 tracts consisting of nearly 1.8 million 
total acres. In particular, for example, the Program helped achieve 
nearly a 300 percent increase in the number tracts with greater than 50 
percent tribal ownership at the Fort Belknap Reservation of Montana, as 
highlighted in our 2016 Status Report.
    Every day we are seeing the difference being made by this Program, 
which is just one example of this Administration's commitment to 
provide more sustainability for landowners, their families, and tribal 
communities for the benefit of generations to come. The Department has 
been taking significant and lasting steps toward fulfilling President 
Obama's goal of strengthening and investing in tribal communities 
through this exceptional opportunity. I believe that the partnerships 
and collaboration we have entered into in Indian Country will have a 
lasting, positive impact on relationships with tribal nations for years 
to come.
Program Background
    The historic legislation to ratify and confirm the 2009 settlement 
between Plaintiffs and the Federal Government in the Cobell litigation 
was enacted in 2010. The Claims Resolution Act provides a foundation 
for addressing the fractionation of Indian lands that was set in motion 
under the long repudiated policies of allotment and assimilation. The 
Cobell Settlement was approved with finality on November 24, 2012, 
following the exhaustion of appeals through the U.S. Supreme Court.
    In that legislation, Congress enacted the $1.9 billion Trust Land 
Consolidation Fund to compensate individuals who willingly choose to 
transfer fractional land interests to tribal nations at fair market 
value. Less than a month following final approval, the Department 
established the Buy-Back Program to work collaboratively across Indian 
Country, with both tribes and individuals, to realize this historic 
opportunity.
    In recognition of the size and importance of the Settlement, then-
Secretary Salazar established the Buy-Back Program in the Office of the 
Deputy Secretary. The Secretary also established an Oversight Board, 
chaired by the Deputy Secretary and including as members the Solicitor, 
the Assistant Secretary-Indian Affairs, the Director of the Bureau of 
Indian Affairs (BIA), and the Special Trustee for American Indians, to 
ensure senior level attention and to facilitate accountability and 
coordination across the Department. The Buy-Back Program Director is 
responsible for leading and coordinating the efforts of the various 
offices and bureaus with responsibility for assisting in implementing 
the Program. The Program Director reports directly to me and meets 
regularly with the Oversight Board.
Impact of Fractionation
    Although the federal policy of Allotment ended in 1934, the impacts 
of that policy continue to reverberate across Indian country. 
Approximately 90 million acres--larger than the state of New Mexico--of 
tribal lands were lost, many of those lands sold to non-Indians. In 
addition, some allotments provided to individuals were held in trust or 
restricted status. These trust and restricted allotments often pass to 
the children, spouses, and other relatives of the original and 
successive landowners, who thus inherit undivided common ownership 
interests in the land. As a result, fractionation of those original 
trust and restricted allotments has grown exponentially over 
generations.
    Fractionation now affects nearly 11 million tract acres of 
remaining allotted land across Indian Country, locking up a significant 
area and creating an overly complicated land tenure status where single 
tracts of land, like those at Crow Creek or Navajo, have more than 
1,200 landowners. When tracts have multiple co-owners, it is difficult 
to obtain the required approvals for leases or other uses of such 
lands. As a result, many tracts are unoccupied and unavailable for any 
purpose. For example, during FY 2016, more than 65 percent of 
individual owners received $25 or less in land-related income to their 
Individual Indian Money (IIM) account.
    In addition, as a result of fractionated ownership of allotted 
lands and the checker-boarded nature of land ownership patterns on many 
reservations, tribes are experiencing major challenges that impact 
tribal sovereignty and self-determination. For example, fractionated 
ownership can make it hard to protect or obtain access to sacred or 
cultural sites, and the checkerboard ownership pattern creates 
jurisdictional challenges and ties up land within the reservation 
boundaries, making it difficult to pursue economic development.
    The Buy-Back Program is the primary land consolidation effort, and 
the results to date are notable. As of September 2016, for locations 
with Program sales, the total fractional interests decreased 
approximately 21 percent from 2013 to 2016, with some locations in the 
Great Plains and Rocky Mountain regions decreasing by approximately 35 
percent.
Program Overview
    The principal goal of the Buy-Back Program is to reduce the number 
of fractional land interests through voluntary sales that place 
purchased interests into trust for tribes. These transfers consolidate 
trust land bases for conservation, stewardship, economic development, 
or other uses deemed beneficial by sovereign tribal nations.
    The five overarching parameters that guide the design and 
implementation of the Buy-Back Program are:

  <bullet> First, in 2012, the Department identified approximately 2.9 
        million fractional interests across approximately 150 locations 
        that may be purchasable by the Buy-Back Program. These 
        fractional interests are owned by more than 243,000 owners and 
        concentrated within a few locations in Indian Country. In the 
        first few years of implementation, the Program's schedule 
        focused primarily on highly fractionated locations. The 
        Department has since announced a total of 105 locations on 
        which implementation will begin by mid-2021. The schedule, 
        expanded in FY 2016, represents more than 96 percent of all 
        landowners and more than 98 percent of both purchasable 
        fractional interests and equivalent acres.

  <bullet> Second, the Settlement limits the amount of money the 
        Department may use for costs associated with the various phases 
        of implementing the Program. By law, no more than 15 percent 
        ($285 million) of the Consolidation Fund may be used for 
        implementation costs in order to maximize the amount available 
        for purchasing fractional interests. Furthermore, the 
        Settlement requires that the Consolidation Fund be expended by 
        November 24, 2022. Accordingly, the Program must be cost 
        efficient and act expeditiously when administering the 
        Consolidation Fund.

  <bullet> Third, despite the large size of the Consolidation Fund, it 
        will not be sufficient to purchase all fractional interests 
        across Indian Country. The value of the land corresponding to 
        the equivalent purchasable acres exceeds $1.555 billion. The 
        Program estimates that more than 4 million purchasable 
        fractionated acres (valued at several billion dollars) will 
        remain following full use of the Consolidation Fund by 2022. 
        The Program has primarily focused on those acquisitions that 
        best reduce fractionation, address the effect of allotment, 
        promote tribal sovereignty, and facilitate economic 
        development. The Program is assessing the viability of 
        continued efforts and new solutions to address land 
        consolidation in the long term.

  <bullet> Fourth, the Program is a willing seller program, meaning 
        each individual landowner who receives an offer can choose to 
        sell or not sell his/her interests. Full use of the 
        Consolidation Fund depends on the number of interests 
        individuals choose to sell.

  <bullet> Fifth, the active participation of tribes in identifying 
        priority tracts is a crucial component of Program 
        implementation. The involvement of tribes in explaining what 
        land consolidation means on their reservations is also key. 
        Over the past four years, the Program has worked with tribes to 
        build relationships and expand outreach efforts to increase 
        landowner awareness.

    The Program's land consolidation processes are categorized into 
four phases: outreach, land research, valuation, and acquisition. The 
outreach phase involves consultation with the tribe about various 
planning matters, such as tribal priorities and involvement, and 
working with communities so that individuals are aware of the 
opportunity to sell fractional interests. As this initial outreach is 
occurring, research concerning reservation lands happens 
simultaneously. Once the research is complete, the Program values 
fractionated tracts using various professional appraisal valuation 
techniques (mass appraisals, project reports, or site-specific 
appraisals). Finally, once fair market value determinations have been 
made, the Program develops an offer set and mails offer packages to 
eligible individuals for their consideration. Additional outreach 
occurs after offer packages are sent to answer landowner questions.
    Although the Program is active at multiple reservations 
simultaneously, given this limited implementation funding, and timing 
and practical considerations, such as a limited appraisal validity 
period, the Program cannot actively operate at all locations 
immediately, and is only active at each location for a limited period. 
As the Program completes land consolidation activities at current 
locations, it continuously starts operations at successive locations.
Government-to-Government Collaboration
    Our government-to-government working relationship with sovereign 
tribal nations across Indian Country has directly led to the Program's 
successes thus far. The Program works with tribes to tailor the 
implementation strategy to the needs and culture of each tribe, 
including partnering with tribes through agreements, sharing 
information and data, considering tribal feedback when developing the 
Program's implementation schedule, and working to value and acquire 
lands that are a tribal priority.
    To date, the Program has entered into agreements with 40 tribes to 
implement land consolidation activities on their reservations. These 
agreements are of two types and present a way for tribes to formally 
collaborate with the Program on implementation activities. First, the 
Program has used cooperative agreements, which are legal instruments 
similar to grants, representing the relationship between the Federal 
Government (i.e., Buy-Back Program) and a recipient of funds to perform 
certain activities. Second, it has entered into memoranda of agreement 
(also known as memoranda of understanding) with several tribes. These 
are used when there is an agreement to exchange information or 
coordinate programs but no funding is provided.
    The Program provides tribes with mapping information, ownership 
information, and landowner information products at several points 
throughout the implementation process including during priority tract 
selection, before offers are sent, during the offer period, and after 
the offer period closes. Tribes can use these products to plan outreach 
events, conduct outreach activities, and identify tribal acquisition 
priorities. Tribes may also use this information to plan for other land 
consolidation activities.
    The Program has considered tribal feedback when developing its 
overall implementation strategy. For example, the Program reviewed 
tribes' submissions to build its expanded implementation schedule. From 
this Planning Initiative, the Program added 63 tribes to the schedule. 
The Program continues to welcome tribal feedback through meetings and 
its annual Listening Session.
    Finally, as mentioned previously, tribes' identification of 
acquisition priorities is an important part of the Program. The Program 
works with tribes to identify priorities early in the implementation 
process, and, to the extent possible, considers tribal priorities 
during implementation. The Program also seeks to appraise these tracts 
or acquire fractional interests in them. Program staff provides support 
to tribes by using maps and other data to assist with selection of 
priority tracts or areas.
Implementation Strategy--Schedule of Locations
    The Buy-Back Program held an open solicitation from November 8, 
2013, through March 14, 2014, during which tribes with jurisdiction 
over the most fractionated locations were invited to submit letters of 
interest or cooperative agreement applications to express their 
interest in participating in the Program. In November 2014, the 
Department announced 42 locations where land consolidation activities 
such as planning, outreach, mapping, mineral evaluations, appraisals, 
or acquisitions are expected to take place through the middle of 2017. 
By including some less-fractionated locations in early implementation 
efforts, the Program has gained experience and input to inform 
implementation at future locations.
    In November 2015, the Program announced a Planning Initiative to 
develop an expanded implementation schedule. The two-pronged Planning 
Initiative gathered input from tribes and landowners. The Program 
received 57 Expressions of Interest from tribal governments and 27,500 
individuals registered as willing sellers through the Planning 
Initiative's deadline of March 11, 2016. Registration as a willing 
seller in no way commits a landowner to sell--nor does it guarantee 
that a landowner will receive an offer--it was simply the best way to 
ensure the Program was aware of interest as a consideration for the 
schedule. From that review, the Department added 63 more locations to 
its schedule, which it announced in May 2016.
    The 105 locations planned for Program implementation represent the 
vast majority of the total landowners and fractionated land across 
Program-eligible locations, representing more than 96 percent of all 
eligible landowners as of 2013; more than 98 percent of both 
purchasable fractional interests and equivalent acres; all of the 10 
BIA regions with fractionated tracts; and all 19 states with fractional 
interests.
    Based on tribal feedback, the Program has used various criteria to 
determine the best sequence of implementation, including: severity of 
fractionation (a locations number of fractionated tracts, interests, 
and acres); degree of ownership overlap between locations or geographic 
proximity; diversity of geographic locations to maximize efficiency, 
resources, and learning opportunities, especially for initial efforts 
in order to facilitate learning; appraisal complexity; overall interest 
of the tribe as demonstrated through the FY 2014 open solicitation and 
FY 2016 Planning Initiative periods; number of owners who have 
demonstrated an interest in selling fractional interests; and cost and 
time efficiency.
    Our pursuit of this aggressive implementation schedule will provide 
new opportunities, but it will also yield new challenges. As we work 
with locations that have more complicated terrains, appraisal 
circumstances, and ongoing legal matters, we anticipate a greater need 
to work closely with tribal governments to reach resolution. Items that 
we continue to work through in collaboration include: public domain or 
off-reservation lands; the potential purchase of ``restricted fee'' 
interests (which require an environmental screening process to ensure 
that the Department is not taking lands into trust on behalf of a tribe 
that may have environmental issues), and implementation of the Program 
on land where multiple tribes may have jurisdiction, such as the Wind 
River Reservation in Wyoming.
    Our work to gain insight and lessons learned will remain constant 
throughout the life of the Program.
Economic & Local Community Benefits
    In addition to the significant impact we are seeing for land 
consolidation, money received by landowners through the Program is 
generating spending in local areas and supports economic activity. 
According to an analysis completed by the Department's Office of Policy 
Analysis in FY 2016, Program payments to landowners nationwide have 
already contributed an estimated $911 million in value added to the 
economy and $1.7 billion in economic output, and supported about 10,000 
jobs nationwide. Landowners often spend income earned from land sales 
in their local economies or have used this income to reinvest in 
reservations.
    There are additional ways in which the Program is having a positive 
impact on tribal communities. For example, tribes earn income from 
newly-consolidated lands, more than $9 million from land consolidated 
through the Program since calendar year 2013. Some tribes have used the 
new income to acquire land held in fee status.
    Tribes that have participated in the Program are also exploring 
ways to best use newly-acquired land. For example, the Salt River Pima-
Maricopa Indian Community of the Salt River Reservation in Arizona is 
studying the potential commercial uses of 58 acres acquired under the 
Buy-Back Program. Many other tribes have plans for further development 
or protection of newly-consolidated lands. Some other examples of 
tribal initiatives include:

  <bullet> The Oglala Sioux Tribe in South Dakota plans to construct 
        several new buildings in the Wakpamni Lake Community on land 
        consolidated through the Program, including space for local 
        food distribution storage, office space, a conference room, 
        community board room, multipurpose space, a civic center, and a 
        day care. The Tribe is also embarking on a major housing 
        program, aided by the recent acquisition of land through the 
        Program.

  <bullet> As a result of Program purchases, the Squaxin Island Tribe 
        in Washington State is now better able to protect its world-
        class oyster beds. Without control of upland, there was always 
        a threat to development or logging that would impact shellfish, 
        especially if lands reverted back to fee due to fractionation.

  <bullet> Land secured in trust for the Crow Tribe in Montana will be 
        used for a new community water plant on land that is now 100 
        percent tribally owned as a result of the Program. The current 
        water plant is not able to provide drinkable water to the 
        growing community of approximately 5,000 individuals. This 
        effort demonstrates how the Administration and the Tribe are 
        working together to enhance Indian water rights, building on 
        the 2012 Crow Tribe-Montana Water Rights Compact which 
        authorized funding to plan, design and construct a Municipal, 
        Rural, and Industrial (MR&I) water system and to rehabilitate 
        and improve the Crow Irrigation Project.

Lessons Learned
    As we continue to implement the Program, we have incorporated 
lessons learned, best practices, and tribal feedback to enhance the 
overall effectiveness of our implementation strategy. Each of our 
annual Status Reports shares what we have heard and learned and how 
that input is being reflected in our day-to-day operations.
    For example, the Program partnered with the U.S. Census Bureau to 
mail a survey to approximately 54,000 landowners with interests at 20 
locations who were sent offers in calendar years 2014 and 2015. Nearly 
6,000 landowners responded, and these responses will help the Program 
better understand why landowners are or are not participating in the 
Program and what, if any, improvements the Program can make to better 
serve landowners.
    In March 2016, for the third consecutive year, the Program gathered 
tribal feedback at a Listening Session, which I hosted. The event 
allowed federal officials to share programmatic updates and hear from 
participants about improving Program implementation across Indian 
Country. Key topics raised or emphasized by participants included 
information sharing, coordination of Departmental efforts, the 
voluntary nature of the Program, and the importance of consolidating 
and restoring tribal lands to protect tribal culture and traditional 
practices.
    Both tribes and individuals have expressed a need to make 
participants aware of the financial implications of receiving funds for 
the sale of fractional interests. Towards that end, the Program, 
through the Office of thee Special Trustee for American Indians and its 
partners, has increased financial education opportunities at locations 
scheduled to receive offers.
    In October 2015, the Program hosted a Tribal Outreach Workshop to 
facilitate discussion among tribes preparing for outreach and those 
that had recently implemented the outreach phase of the Program. Tribes 
shared lessons learned, including the importance of planning and 
communication between BIA, OST, and Program staff; soliciting support 
from tribal leadership; customizing outreach materials; inviting 
landowners to events that may live on nearby reservations; and 
providing landowners with other options if they choose not to sell 
their land through the Program.
Future Work to Address Fractionation
    The reduction in fractional interests through the Program is 
encouraging, but the Land Consolidation Fund will not be sufficient to 
purchase all fractional interests across Indian Country. The Program 
estimates that more than 4 million equivalent purchasable fractionated 
acres may still exist after it fully expends the Consolidation Fund, 
which is expected to occur before November 24, 2022, the date by which 
the Settlement dictates that any remaining funds be returned to the 
U.S. Department of the Treasury.
    Even with the Program's significant progress to date--including 
increasing tribal ownership in nearly 11,000 tracts, consisting of 
nearly 1.8 million acres, to greater than 50 percent--and the results 
expected through 2022, fractionation will continue to be an extremely 
complicated, ongoing challenge in the long term.
    Sustained departmental, congressional, and tribal attention to a 
range of measures will likely be necessary to address the problem and 
maximize the value of the land base for the benefit of tribal 
communities. Because fractionation continues to grow each day, the 
progress achieved by the Program in reducing the overall number of 
fractional interests will be compromised absent continued efforts.
    In May 2016, Secretary Sally Jewell directed the Oversight Board to 
pursue an analysis of options to extend the life of the Program so that 
additional future participants may benefit and so that the Program 
could return to locations where implementation has already occurred. 
Preliminary ideas, for discussion with Indian Country at the Program's 
next Listening Session, include options for continued land purchases in 
the long-term and policy changes aimed at helping address problems 
created by fractionation.
    A long-term commitment to land consolidation will produce several 
benefits, including improving government-to-government relationships, 
increasing tribal sovereignty and self-determination, fostering 
cultural preservation, and enhancing economic and social development.
    The Department looks forward to working with the Committee and 
leaders in the U.S. Congress on long-term strategies for land 
consolidation and other efforts to address the issues caused by 
allotment.
Conclusion
    The Claims Resolution Act has provided a unique opportunity for the 
Department and tribes, working together with substantial resources, to 
help address a long-standing and serious problem. The Land Buy-Back 
Program strengthens tribal sovereignty by transferring lands to tribes, 
spurring economic development and unlocking the potential of tribal 
lands. As we move forward together, we will continue to implement the 
Program in a fair and equitable a manner that maximizes the use of 
funds to consolidate tribal lands through voluntary purchases from 
allottees.
    We appreciate the Committee's interest in the Program, and look 
forward to continued discussions to preserve and strengthen trust 
lands.

    The Chairman. Well, thank you very much. Welcome back to 
the Committee. Thanks for your relationship with us over the 
past several years. We appreciate you being here to testify 
today.
    Next I would like to turn to the Honorable Floyd Azure, who 
is Chairman of the Fort Peck, Poplar, Montana. Welcome.

STATEMENT OF HON. FLOYD AZURE, CHAIRMAN, ASSINIBOINE AND SIOUX 
                 TRIBES, FORT PECK RESERVATION

    Mr. Azure. Good afternoon, Senator Barrasso and Senator 
Tester and Senator Daines. I am Floyd Azure, Chairman of the 
Assiniboine and Sioux Tribes of the Fort Peck Reservation.
    I am honored to present testimony today in support of 
efforts to continue, and implementation of, the Tribal Nations 
Land Buy-Back Program. The Cobell settlement endorsed by 
Congress provided a total of $3.1 billion to address the 
Individual Indian Money accounting claims, some mismanagement 
of the underlying trust assets, and designated $1.9 billion to 
purchase fractionated lands from individual Indians for 
restoration back to the Tribes.
    The Land Buy-Back Program created a rare opportunity to 
restore land base through the Department of Interior's purchase 
of fractionated trust land interests from willing individual 
Indian owners. The Department of Interior commenced Land Buy-
Back efforts by first identifying the 40 Indian Reservations 
with the highest incidents of fractionation and establishing 
projected purchase ceilings for each reservation. The Fort Peck 
Reservation was ranked as the reservation with the sixth 
highest number of purchasable fractionated interest with an 
initial purchase ceiling price of $80,082,500.
    In July 2015, the Fort Peck Tribes and the Interior entered 
into a cooperative agreement to provide landowner education 
prior to and during implementation of the Program on the Fort 
Peck Reservation. The Department of Interior began 
implementation in mid-September 2015 and sent initial offers to 
the landowners of Fort Peck Reservation lands that included 
mineral tracts under lease and production.
    These initial offer packages were determined in error as 
the Department of Interior had determined mineral tracts under 
production were not purchasable due to complexities of the 
valuation of producing mineral tracts. Thus, the initial offers 
were followed by a second wave of corrected offers that 
excluded producing mineral tracts, but did include mineral 
tracts under lease with a new valuation that included the 
mineral lease rental.
    The confusion with the initial offers and corrected offers 
caused skepticism and distrust of the Buy-Back Program. Despite 
the fact that the Department of Interior and the Tribes held 
numerous additional outreach sessions to explain the offer 
packages to the landowners and provide information on the 
valuation process, only 38.9 percent of the purchasable 
fractionated interests were acquired. For this reason, we think 
that another round of offers should go out at Fort Peck so that 
my Tribe can enjoy the full benefit of what was planned for 
Fort Peck for the mistake by the Program.
    Nevertheless, at the conclusion of the Program, an 
equivalent of 218,340 acres were acquired for the Tribes, at a 
total cost of $69,838,840, which was approximately $11,000,000 
short of the initial purchase ceiling allocated to the Fort 
Peck Reservation. The Land Buy-Back Program greatly assisted 
with the overall goals of Tribal land restoration and 
consolidation and placed the Tribe in a minority ownership 
position in 3,175 tracts and a majority ownership position in 
1,292 tracts. Further, the Tribe has leased a majority of the 
equivalent acreage acquired of 218,340 acres for a significant 
increase in Tribal agricultural land revenue.
    However, fractionated land ownership continues to exist 
after the Buy-Back Program. Presently, 4,609 fractionated 
tracts with an equivalent acreage amount of 702,332 remain in 
individual Indian fractionated ownership, illustrating the fact 
that additional consolidation efforts are critical to fully 
restore the Fort Peck Reservation land base. Additionally, 
these remaining fractionated interests are an ongoing 
management burden for the Fort Peck Agency Bureau of Indian 
Affairs.
    Thus, the Fort Peck Tribes support the continuation of the 
Land Buy-Back Program and have suggestions for improving the 
Program. In terms of the way to improve the Program, we would 
recommend the Tribes be empowered to craft and carry out the 
implementation of the Program. We feel the success of the 
Program was encumbered by the Department of Interior's 
cumbersome approval process for all activities, including 
travel. Tribes should be allowed the autonomy to conduct 
outreach efforts as they deem effective without the burdensome 
oversight of the Interior.
    Second, we would recommend extending the shelf life of the 
appraisals. Right now, the Department of Interior appraisals 
for the Buy-Back Program has a shelf life of nine months 
established by the Department of Interior policy. However, 
standard trust land appraisals outside the Land Buy-Back 
Program have a standard shelf life of one year and can be 
extended if transactions are not complete. Extending the shelf 
life of the appraisals would allow for several waves of 
landowner offers without expending additional administrative 
funds to update such appraisals.
    Third, we believe there needs to be a greater coordination 
in consultation with the Tribes in the determination of the 
purchasable and non-purchasable tracts that would allow the 
Tribe to develop strategies such as mandatory home site leases 
for tracts with homes to maximize the number of tracts for 
purchase.
    Fourth, we think that the Program should be expanded to 
offer acquisition of land that only has one owner. Across 
Indian Country, some lands are still owned by one owner 
although these lands have the potential to become fractionated 
upon the death of the landowner. Additionally, true land 
consolidation must include restoration of reservation fee lands 
to Tribal ownership. Allowing the Program to purchase available 
fee lands would enhance consolidation and maximize Tribal 
control and development of the Reservation.
    Finally, the area where we see the need for greater 
legislative change is in the Education Scholarship Fund. We 
understand that the Cobell Settlement Scholarship Fund now has 
approximately $40 million. However, the Fund has resulted in 
only $3 million in actual student scholarships awarded. While 
the land acquired on the Fort Peck Reservation resulted in a 
significant contribution to the Fund, there is no assurance 
that this Fund will provide any educational benefits to our 
members. The Fort Peck Tribes recommend revising the management 
of the Scholarship Fund to allow Tribal participation in the 
use and award of the scholarship funds.
    I would be happy to answer any questions. Thank you.
    [The prepared statement of Mr. Azure follows:]

Prepared Statement of Hon. Floyd Azure, Chairman, Assiniboine and Sioux 
                     Tribes, Fort Peck Reservation
    Good afternoon. Chairman Barasso, Senator Tester and honorable 
members of the Senate Committee on Indian Affairs, I am Floyd Azure, 
Chairman of the Assiniboine and Sioux Tribes of the Fort Peck 
Reservation. I am honored to present testimony today in support of 
efforts to continue and improve implementation of the Tribal Nations 
Land Buy-Back Program initially established by the 2010 Claims 
Resolution Act that included the Cobell settlement. The Cobell 
settlement, endorsed by Congress, provided a total of $3.1 billion to 
address Individual Indian Money accounting claims, some mismanagement 
of underlying trust assets, and designated $1.9 billion to purchase 
fractionated lands from individual Indians for restoration back to 
Tribes.
    The General Allotment Act and subsequent allotment acts awarded 
lands held collectively by Tribes to individual Indians which 
drastically diminished Tribal land bases and resulted in a loss of over 
90 million acres of Tribal lands. Individual Indian allottees and their 
heirs soon lost meaningful management authority of allotted lands due 
to the onset of fractionated ownership. Congress recognized the failure 
of the allotment policy and ended the practice in 1934 with adoption of 
the Indian Reorganization Act. Further, Acts of Congress have created 
tools to attempt correction of the allotment of Tribal lands and 
provide opportunities for Tribal acquisition of fractionated lands; 
however, none of these efforts provided critical funding to achieve 
widespread Tribal land base restoration and consolidation efforts. Land 
restoration efforts that reduce fractionated land ownership will 
enhance Tribal control over reservation lands and reduce the management 
responsibilities of the Federal Government for highly fractionated 
lands.
Fort Peck Participation in the DOI Land Buy-Back Program for Tribal 
        Nations
    The Land Buy-Back Program for Tribal Nations created a rare 
opportunity to restore Tribal land bases through the Department of 
Interior's (DOI) purchase of fractionated trust land interests from 
willing individual Indian owners. DOI commenced Land Buy-Back efforts 
by first identifying the 40 Indian Reservations with the highest 
incidence of fractionation and establishing projected purchase ceilings 
for each Reservation. From the outset, Tribes challenged the purchase 
ceilings as they did not appear based on the value or number of the 
interests but instead on an allocation of the total available funding 
for each reservation. Fort Peck was ranked as the Reservation with the 
6th highest number of purchasable fractionated interest with an initial 
purchase ceiling price of $80,082,500.
    DOI also developed an Implementation Plan that included collecting 
land data and research, valuation of lands designated purchasable, 
outreach to individual landowners and, finally, acquisition. Fort Peck 
has had a long-standing fee and trust land acquisition program and 
initially proposed to assist the Department with collecting data on 
Reservation lands, assisting with valuation and negotiating offers with 
individual landowners. However, as the program evolved, DOI utilized 
existing digital data for reservation lands and established a `mass 
appraisal' process that relied largely on comparable land sales in 
areas surrounding each reservation. Thus, opportunities for meaningful 
Tribal involvement were diminished and only the outreach component was 
available for Tribal implementation.
    After negotiations with DOI, Fort Peck entered into a cooperative 
agreement with the Department of Interior in July, 2015 to provide 
landowner outreach and education prior to and during implementation of 
the program on the Fort Peck Reservation. Pursuant to the approved 
outreach efforts, the Tribes held events to educate and prepare 
landowners for purchase offer packages. Tribes were also consulted to 
establish priorities for purchase. However, Fort Peck, like most other 
Tribes chose not to determine priorities to ensure that the Tribe did 
not interfere with an opportunity for all willing landowners to 
participate.
    DOI began implementation in mid-September, 2015 and sent initial 
offers to landowners of Fort Peck Reservation lands that included 
mineral tracts under lease and production. These initial offer packages 
were determined in error as DOI had determined mineral tracts under 
production were not purchasable due to the complexities of the 
valuation of producing mineral tracts. Thus, the initial offers were 
followed by a second wave of corrected offers that excluded producing 
mineral tracts but did include mineral tracts under lease with a new 
valuation that included the mineral lease rental. Obviously, the 
confusion with the initial offers and corrected offers, while not 
applicable to all the offer packages, caused skepticism and distrust of 
the Buy-Back Program. Despite, the fact that DOI and the Tribes held 
numerous additional outreach sessions to explain the offer packages to 
landowners and provide information on the valuation process, only 38.9 
percent of purchasable fractionated interests were acquired.
    At the conclusion of the program, an equivalent of 218,340 acres 
were acquired for the Tribes at a total cost of $69,838,840.00, which 
was approximately $11,000,000 short of the initial purchase ceiling 
allocated to the Fort Peck Reservation. The Land Buy Back Program 
greatly assisted with the overall goals of Tribal land restoration and 
consolidation and placed the Tribe in a minority ownership position in 
3,175 tracts and a majority ownership position in 1,292 tracts. 
Further, the Tribe has leased a majority of the equivalent acreage 
acquired of 218,340 acres for a significant increase in Tribal 
agricultural land revenue.
    However, fractioned land ownership continues to exist after the 
Buy-Back program. Presently, 4,609 fractionated tracts with an 
equivalent acreage amount of 702,332 remain in individual Indian 
fractionated ownership illustrating the fact that additional 
consolidation efforts are critical to fully restore the Fort Peck 
Reservation land base. Additionally, these remaining fractionated 
interests are an on-going management burden for the Fort Peck Agency 
Bureau of Indian Affairs.
Continuation of the Land Buy Back Program
    The Fort Peck Tribes support the continuation of the Land Buy Back 
Program for Tribal Nations with additional funding beyond the $1.9 from 
the Cobell Settlement. The program has placed the Tribes in a 
decisionmaking position on many tracts and moved consolidation efforts 
much further toward completion. However, additional funding, beyond the 
Cobell Settlement funds, will be necessary to continue Tribal land base 
restoration and consolidation efforts and to decrease the costly burden 
of DOI management of fractionated land interests. The Land Buy-Back 
Program is approaching $1 billion in land purchase expenditures with 
many Reservations awaiting participation. While DOI reports detail the 
specific number of individual landowner interests purchased, the data 
also reveals a significant number of interests that remain in 
individual ownership. With additional funding, the program can enhance 
purchase efforts and also return to reservations for additional waves 
of offers to maximize landowner participation.
Increase in Tribal Outreach Funding
    DOI negotiated Cooperative Agreements with Tribes, including Fort 
Peck, for Tribal implementation of outreach efforts to individual 
landowners. Tribes generally wrote proposals for staff, space and 
equipment needs and outreach event funds. While DOI relied heavily on 
Tribes to promote the Land Buy-Back program and to educate landowners 
on the benefits of Tribal land consolidation, the funds awarded to 
Tribes fell far short to meet these lofty objectives. In fact, Fort 
Peck received less than 1 percent of the established purchase ceiling 
amount to conduct outreach efforts to Tribal landowners. Increased 
funding to Tribes for the Outreach component of implementation would 
maximize landowner participation. Further, DOI heavily monitored all 
Tribal activities for outreach with a cumbersome approval process for 
all activities, including travel. Tribes should be allowed the autonomy 
to conduct outreach efforts as they deem effective and appropriate 
without the burdensome oversight of the Cooperative Agreement scheme. 
This oversight is contrary to promotion of self-determination policies 
in other contractual agreements between the United States and Tribes.
DOI Land Purchase Infrastructure
    During the last four years, the program has developed methods and 
processes that have proven successful to achieve the objectives of the 
program, while remaining well within the administrative cost limits 
established in the Cobell Settlement. In fact, DOI reports indicate 
that approximately $285 million of the funds allocated for 
administration remain unexpended. The program has utilized the `mass 
appraisal' process for valuation of Reservation trust lands that has 
achieved tract values acceptable to individual trust landowners. 
Further, the program has created an acquisition process that 
efficiently generates landowner offers directly from the DOI's national 
title system and allows for the immediate transfer of title of numerous 
interests from the individual landowner to the Tribes on one deed. This 
infrastructure has proven cost effective and efficient. The Fort Peck 
Tribes recommend additional funding to allow the Program to continue, 
without interruption, after expenditure of the Cobell funds, to 
maximize the benefits of the land purchase infrastructure.
Appraisal Shelf Life
    While DOI developed a cost effective `mass appraisal' process that 
yielded satisfactory land values for individual landowners, the short 
shelf-life of the appraisals is not reasonable. The DOI appraisals for 
the Buy-Back program has a shelf-life of 9 months established by DOI 
policy. However, standard trust land appraisals, outside the Land Buy-
Back program, have a standard shelf-life of one year and can be 
extended if transactions are not complete. Extending the shelf-life of 
the appraisals would allow for several waves of landowner offers 
without expending additional administrative funds to update such 
appraisals.
Appraiser Determination of Purchasable and Non-Purchasable Tracts
    Throughout the last four-year implementation of the Land Buy-Back 
program, Tribes have expressed confusion regarding DOI's determination 
of which tracts are purchasable and which tracts are deemed non-
purchasable. On the Fort Peck Reservation, many landowners complained 
that their purchase offers omitted tracts that they wished to sell. 
Fort Peck was informed that the contracted appraisers determined which 
tracts to include as purchasable. Information regarding the criteria 
for purchasable tracts has not been clear. We understand that tracts 
with structures were omitted from offers regardless of whether the 
structure was a dilapidated outbuilding, barn or remnants of a long-
abandoned home. While it makes sense to avoid an offer with an 
inhabited home, it does not make sense to exclude tracts with abandoned 
or unused structures.
    Coordination and consultation with Tribes in the determination of 
purchasable and non-purchasable tracts would allow the Tribe to develop 
strategies, such as mandatory homesite leases for tracts with homes, to 
maximize the number of tracts for purchase. Further, Tribal 
investigation of tracts would avoid exclusion or omission from purchase 
offers for uninhabited, abandoned buildings.
Purchase of Non-fractionated and Fee Tracts
    The Land Buy-Back Program purchased fractionated trust lands which 
were defined as lands having more than one owner. Across Indian 
Country, some lands are still owned by one owner although these lands 
have the potential to become fractionated upon death of the landowner. 
The Program should allow for offers to purchase lands owned by one 
owner. Additionally, true land consolidation must include restoration 
of reservation fee lands to Tribal ownership. Allowing the program to 
purchase available fee lands would enhance consolidation and maximize 
Tribal control and development of reservation lands.
Education Scholarship Fund
    The Fort Peck Tribes understand the Cobell Settlement scholarship 
fund, capitalized by matching DOI contributions for land purchases, now 
has approximately $40 million. However, the fund has resulted in only 
$3 million in actual student scholarships awarded. Land acquired on the 
Fort Peck Reservation resulted in a significant contribution to the 
fund. However, the current framework for management of the fund by the 
Cobell Plaintiffs does not result in any assurance the fund will 
benefit members of the Assiniboine and Sioux Tribes of the Fort Peck 
Reservation. The Fort Tribes recommend revising the management of the 
scholarship fund to allow Tribal participation in the use and award of 
the scholarship funds. The Fort Peck Tribes, along with many Tribes, 
voiced concerns regarding the scholarship fund management throughout 
consultation on the Cobell Settlement. The Fort Peck Tribes have a 
significant need for educational funds for the Fort Peck Tribal 
College, student undergraduate and graduate scholarships, and funds to 
promote Assiniboine and Sioux language and culture. I propose 
developing a process for the Fort Peck Tribes to receive a percentage 
of the scholarship fund commensurate with the contributions to the fund 
from land purchases at Fort Peck.
Conclusion
    The Land Buy Back Program for Tribal Nations was implemented on the 
Fort Peck Reservation and a significant number of individual Indian 
owned fractionated interests were restored to Tribal ownership. The 
Fort Peck Tribes assisted with the outreach efforts through a 
Cooperative Agreement with DOI.
    In this vain, the Fort Peck Tribes support the continuation of a 
DOI managed Land Buy Back Program with additional funding beyond the 
Cobell Settlement Funds. However, we think it is critical that the Buy-
Back program return to Fort Peck, due to the previous erroneous offers 
that land-owner confusion and limited participation. To improve these 
efforts, I would recommend an increase in funds for Tribal outreach 
efforts as such efforts are critical to maximize landowner 
participation.
    I would also recommend Tribal participation in the determination of 
purchasable/non-purchasable tracts and to enhance the program to 
purchase solely owned tracts and fee lands within the exterior 
boundaries of a reservation. I also recommend an increase in the length 
of shelf-life of appraisals to avoid costly updates to accommodate 
additional waves of offers on each reservation.
    Finally, I recommend a revision to the Cobell Scholarship Fund 
management to allow Tribal education programs to directly receive a 
percentage of funds contributed from land purchases on their particular 
reservations. Such a scheme would insure that funds are utilized for 
Tribal education priorities.
    Thank you for the opportunity to share our perspectives and 
concerns. I would be happy to answer your questions.

    The Chairman. Thank you. Thank you very much for your 
thoughtful testimony. We appreciate you being here.
    Our next witness, please.

STATEMENT OF HON. TERRY TATSEY, VICE-CHAIRMAN, BLACKFEET NATION

    Mr. Tatsey. Good afternoon, Chairman Barrasso and Committee 
members. [Greeting in native language.] How are you doing?
    First of all, I would like to recognize our Pikunii Woman 
Warrior, Yellow Bird Woman, the late Elouise Cobell. But also 
at this time I would like to recognize an uncle of mine that 
was lost 75 years ago at Pearl Harbor, George Tatsey. Our 
contribution to the military amongst Tribal Nations is 
significant, and I want to recognize that.
    The Chairman. George Tatsey. Thank you.
    Mr. Tatsey. He lost his life in Pearl Harbor 75 years ago.
    The Blackfeet Reservation is in its post-offer phase. One 
of the concerns that we had to deal with initially was the 
outreach and education component. We felt if a very well pre-
planned effort would have been conducted, it would educate our 
landowners, those that had the potential to benefit from this. 
So that was just a concern our people had and our Tribal 
leadership had. Any time you get a large infusion of money into 
Indian Country that have limited experience in dealing with 
investments or purchases, short- or long-term, it is a real 
high risk.
    One of the bright spots that our Tribe benefited from by 
being the last Tribe in Montana to implement the Program was 
our Tribal Council and our community took a grassroots 
initiative to create what we call the Pikunii Money Campaign. 
It wasn't initially funded in the cooperative agreement; later 
it was, and that is in the height of its outreach and education 
right now, so a lot of our people are very aggressively 
educating the potential beneficiaries on the financial 
responsibility and opportunity they have with this money.
    So it is a campaign that can be used as a template when 
other Tribes are infused with large money in the future. There 
is a pre- and post-assessment that is going to come from this, 
so it is going to be an opportunity to do better things as we 
move into the future.
    Another challenge that was faced for this Program, although 
we were the last Tribe, is the 45-day window from offer to 
acceptance by the beneficiaries. So if we could take a look at 
that as we move forward and ways to address that and extend 
that, it is something that we feel is very important, and give 
our people and the programs a better opportunity to make good 
decisions as they are deciding whether to sell or not to sell 
their fractionated portions. Some of them have large portions 
of those fractionated interests.
    Moving forward, I think this is something that we really 
need to take a look at. The appraisal process right now has a 
nine month shelf life, and as we move forward the consideration 
is let's take a look at extending that window, if we extend 
this program and move the program forward with corresponding 
funding, because one of the things that is not going to end is 
fractionation, unfortunately, of our properties. We are going 
to get families that are not going to provide wills, and so 
that fractionation, those challenges are going to be a part of 
reality as we move forward in the future; not to the magnitude 
that we are experiencing now, but they are still going to be 
there. So I just wanted to share that with you.
    So when we do appraisals with the current process, another 
thing that we need to consider as we move forward is re-
appraisals, because minerals are discovered as we assess 
properties along recreational mountain-front commercial 
properties, those property values are going to increase, so 
really reassessing the appraisal process for some of those 
Tribes and tribal members that felt their lands and property 
were undervalued. So that would be a recommendation as we move 
forward.
    And probably last, not least, is when we do things with 
Indian Country or Tribal Nations, respectively, let's not use 
the cookie cutter template, one size fits all. Tribes are 
unique. Tribes are different. And we need to deal with them 
that way and respect them that way.
    Thank you.
    [The prepared statement of Mr. Tatsey follows:]

   Prepared Statement of Hon. Terry Tatsey, Vice-Chairman, Blackfeet 
                                 Nation
Introduction
    Oki Tsa nii tahpii; (Hello How are You)
    Recognize: Our Pikunii Woman Warrior; Yellow Bird Woman The late 
Elouise Cobell,
    The Land Buy-Back Program, currently in the Post-offer phase on the 
Blackfeet Indian Reservation in Montana.

        1.  The initial point of concern is that both the Department 
        and Tribe agree that pre-program individual Financial Literacy 
        training and education was critical.

        2.  The Department and Tribe recognize that 45 days is a very 
        short time for individual offers and implement such an 
        important program.

        3.  The recommendation is to continue the current program with 
        corresponding funding beyond the agreed upon term, for tribal 
        members that will inherit land in the future.

        A.  Program Benefits (non-contiguous track appraisal): The 
        Blackfeet Tribe will be the last Tribe in Montana to implement 
        in the Buy-Back Program, we have benefitted from lessons 
        learned from other respective tribal Nations challenges. For 
        example, the Blackfeet Tribe has a substantial amount of tracts 
        that are non-contiguous. A notable benefit to the Blackfeet has 
        been the appraisal of non-contiguous tracks that were otherwise 
        not being appraised during prior implementation of the Buy-Back 
        Program.

        B.  Financial Literacy Education: Another benefit to the Tribe 
        has been the Department's willingness to change its policy 
        regarding financial literacy education. The Buy-Back Program 
        has created a potential economic benefit to our tribal members, 
        on a reservation with a significantly high unemployment rate.
            However, poverty is directly correlated with education, or 
        the lack of. Many individuals receiving offers, some 
        significant, will lack the financial literacy needed to 
        efficiently manage their new fortune, should they accept. When 
        drafting the Cooperative Agreement, the Tribe included a line 
        item for voluntary financial literacy training to land owners. 
        The Department denied the Tribe's request. Although the Tribe's 
        Cooperative Agreement didn't allow a financial education 
        component, the Tribe met with various financial entities in an 
        attempt to provide financial literacy training outside the 
        Cooperative Agreement. The Tribe was successful with partnering 
        with various entities and the ``Pikuni Money'' campaign was 
        formed, with a mission of providing financial literacy training 
        to eligible land owners. Eventually the Tribe was able to 
        negotiate with the Department and an agreement was made to 
        amend the Cooperative Agreement which would fund a portion of 
        the Pikuni Money campaign as well as extending the length of 
        the Cooperative Agreement. The Tribe appreciates the 
        Department's effort in amending the Agreement. The Tribe is 
        aware that individuals will receive offers in the 6-7 figure 
        range. The Tribe is fully briefed on the unfortunate events 
        that occurred on other reservations, to similarly situated 
        individuals. The Tribe wants to be in a position to better 
        prepare its people for the aftermath of the Buy-Back Program. 
        The Tribe is very optimistic that the financial education 
        component of the Cooperative Agreement will greatly benefit the 
        people who participate.
Potential consequences of the Buy Back Program include:
    Length to Accept Offer: The length of time that an offer has to be 
accepted. This is a once in a life time event throughout Indian 
Country. Deciding on whether or not to sell your land is a major 
decision. Because the offer monies have already been allocated by the 
Department, and the appraisals valid for nine (9) months, it would be 
in the best interests of the eligible land owners if the offer period 
could be extended past the 45 days.
    Cooperative Agreement: The Cooperative Agreement, Outreach and Post 
Outreach Process' need to be revisited. The Buy-Back Program is the 
first of its kind. Many of the components needed to make the Program 
work, were forged from scratch. The Tribe had no road map to follow 
when creating its Cooperative Agreement. There was a lack of 
cooperation on behalf of the Department to assist the Tribe with 
creating the Agreement. For example, the Tribe asked for assistance 
with regards to equipment: ``how much paper, pens and other supplies 
should the Tribe contemplate using?'' The Tribe also requested copies 
of other Cooperative Agreements from other tribes who had already 
participated in the Program. The Department denied the Tribe's 
requests. This was unfortunate because the Tribe on its own volition 
was able to reach out to other tribes, and gain valuable insight and 
information that the Tribe was able to incorporated into its 
Cooperative Agreement.
    Cookie Cutter mentality: The Tribe disagrees with the Department's 
``cookie-cutter'' mentality towards the Tribe throughout Buy-Back 
Program. The Department based its decisions to allow or not to allow 
the Tribe to perform certain tasks based on what occurred on other 
reservations during the Buy-Back Program. The Department's approach is 
that if something was not successful at tribe A, then it wouldn't be 
successful at Blackfeet, and vise versa. The Tribe has had to remind 
the Department that the Blackfeet and each respective tribal nation are 
different and must be treated as such.
    Thank you.

    The Chairman. Thank you so much for your testimony.
    Mr. Cobell.

 STATEMENT OF TURK COBELL, TREASURER, COBELL BOARD OF TRUSTEES

    Mr. Cobell. Good afternoon, Chairman Barrasso, Vice 
Chairman Tester, and distinguished members of the Committee. My 
name is Turk Cobell, and I am pleased to be here this afternoon 
on behalf of the Cobell Board of Trustees.
    The CBOT was established under the settlement agreement 
that established the Cobell Scholarship Program and resolved 
the long-running class action litigation against the Department 
of Interior and other Federal defendants known as Elouise 
Pepion Cobell v. Jewell. The Cobell Settlement was authorized 
by Congress on December 8, 2010, six years ago tomorrow, and 
was granted final approval by the Court on November 24, 2012.
    The role of the CBOT under the Cobell Settlement is to 
serve as custodian of the scholarship funds, to govern the 
Cobell Scholarship Program, and to report periodically to the 
Secretary of Interior and Lead Plaintiffs on scholarship 
activities.
    As I stated, I am Turk Cobell, a member of the Blackfeet 
Nation, the son of lead plaintiff, Elouise Cobell, and I am an 
entrepreneur and also serve as the Treasurer of the CBOT. Other 
members of the CBOT include Alex Pearl, a citizen of the 
Chickasaw Nation of Oklahoma, who is an Assistant Professor of 
Law at Texas Tech University School of Law and Chair of the 
CBOT; Jeani O'Brien, a member of the White Earth Band of the 
Minnesota Chippewa Tribe, who is a Professor at the University 
of Minnesota; Pam Agoyo, a member of the Pueblo of Ohkay 
Owingeh, Pueblo of Cochiti, and Pueblo of Kewa, who is also the 
Director of American Indian Student Services and Special 
Advisor to the President at the University of New Mexico; and 
Dorothy Nason, a member of the Leech Lake Band of the Minnesota 
Chippewa Tribe, who is a Professor at the University of British 
Columbia. I will also mention that Elouise Cobell, the 
principal plaintiff in the litigation and my mother that led to 
creation of the Scholarship Program, was honored two weeks ago 
by receiving the Presidential Medal of Freedom.
    I am pleased to report that the Cobell Scholarship Program 
is now well underway and is working extremely well. In fact, in 
the 16 months since CBOT first began authorizing scholarship 
awards, over 2,100 hundred individual Cobell scholarships have 
been awarded to over 1,100 Native American and Alaska Native 
students. The scholarship awards are $5,000 per semester for 
undergraduates and $10,000 per semester for graduate and 
doctoral students.
    The Cobell scholarship awards to date total more $5.25 
million, and the CBOT has authorized an additional $500,000 for 
scholarships for the summer term 2017. Thus, the scholarships 
authorized to date total more than $5.75 million. Moreover, the 
quality of the applicants is remarkable. The combined average 
GPA for students who received scholarships for the current 
academic year is 3.46.
    There is a huge unmet need for these scholarships in the 
Native American community. Our scholarship administrator, 
Indigenous Education, Inc. received nearly 3,600 scholarship 
applications for the current academic year, but the funds 
available were only sufficient to provide scholarships to 600 
of those students.
    There is some good news, however. The Scholarship Program 
will continue to receive additional funds related to the Land 
Consolidation Program up to a cap of $60 million. In addition, 
the CBOT has invested the funds received conservatively, 
principally in index funds managed by Vanguard, but the returns 
to date have been excellent and have provided more funds for 
scholarships. The availability of additional funding and 
prudent asset management are both critical because CBOT is 
required to operate the Cobell Scholarship Program as a 
perpetual fund.
    The CBOT did encounter several initial hurdles in 
administering the Cobell Scholarship Program. The organization 
originally selected, before the CBOT was formed, to handle 
applications and to administer scholarships resigned before the 
application process even began. The next organization was 
selected and was overwhelmed by the number of applicants and 
was not able to handle scholarship administration in a timely 
or satisfactory manner.
    Fortunately, CBOT replaced that organization earlier this 
year with IEI, led by Melvin Monette, who is also testifying 
today, and IEI has done a superb job in administering the 
Scholarship Program. Moreover, in conjunction with replacing 
the prior administrator, CBOT and IEI jointly proposed that the 
administrative fee be cut in half, from 6 percent annum to 3 
percent annum, and that has been done.
    In getting the Cobell Scholarship Program operational and, 
in particular, in working through the changes in 
administrators, the CBOT has had the full support of the Lead 
Plaintiffs, through their counsel, Bill Dorris, of Kilpatrick 
Townsend, and the Department of Interior. At Interior, the 
single most critical person has been the Solicitor, Hilary 
Tompkins, who has been extraordinarily helpful to the Cobell 
Scholarship Fund at every turn.
    Thank you, Mr. Chairman. That completes my testimony, and I 
would be pleased to answer any questions the Committee may have
    [The prepared statement of Mr. Cobell follows:]

 Prepared Statement of Turk Cobell, Treasurer, Cobell Board of Trustees
    Chairman Barasso, Vice Chairman Tester, and distinguished Members 
of the Committee, my name is Turk Cobell and I am pleased to appear 
today on behalf of the Cobell Board of Trustees (CBOT). The CBOT was 
established under the settlement agreement (the Cobell Settlement) that 
established the Cobell Scholarship Program and resolved the long-
running class action litigation against the Department of Interior and 
other federal defendants known as Elouise Pepion Cobell, et al. v. 
Jewell (Cobell Litigation). The Cobell Settlement was authorized by 
Congress on December 8, 2010--six years ago tomorrow--and was granted 
final approval by the Court on November 24, 2012.
    The role of the CBOT under the Cobell Settlement is to serve as 
custodian of the scholarship funds, to govern the Cobell Scholarship 
Program and to report periodically to the Secretary of Interior and the 
Lead Plaintiffs on the scholarship activities. As stated, I am Turk 
Cobell (a member of the Blackfeet Nation), the son of the lead 
plaintiff, Elouise Cobell, and I am an entrepreneur and also serve as 
the Treasurer of the CBOT. Other members of the CBOT include Alex 
Pearl, a citizen of the Chickasaw Nation of Oklahoma, who is an 
Assistant Professor of Law at Texas Tech University School of Law and 
Chair of the CBOT; Jeani O'Brien, a member of White Earth Band of the 
Minnesota Chippewa Tribe, who is a Professor at the University of 
Minnesota; Pam Agoyo, a member of the Pueblo of Ohkay Owingeh, Pueblo 
of Cochiti, and Pueblo of Kewa, who is the Director of American Indian 
Student Services and Special Advisor to the President at the University 
of New Mexico; and Dorothy ``Dory'' Nason, a member of the Leech Lake 
Band of the Minnesota Chippewa Tribe, who is a Professor at the 
University of British Columbia. I should also mention that Elouise 
Cobell, the principal plaintiff in the litigation that led to creation 
of the Cobell Scholarship Program, was honored, posthumously, two weeks 
by being awarded the Presidential Medal of Freedom.
    I am pleased to report that the Cobell Scholarship Program is now 
well underway and is working extremely well. In fact, in the sixteen 
months since CBOT first began authorizing scholarship awards, nearly 
1800 hundred individual Cobell scholarships have been awarded to almost 
1000 Native American students. The scholarship awards are $5,000 per 
semester for undergraduates and $10,000 per semester for graduate and 
doctoral students. The Cobell scholarship awards to date total more 
$5.25 million, and the CBOT has authorized an additional $500,000 for 
scholarships for the Summer Term 2017. Thus, the scholarships 
authorized to date total more than $5.75 million. Moreover, the quality 
of the applicants is remarkable. The combined average GPA for students 
who received scholarships for the current academic year is 3.46.
    There is a huge unmet need for these scholarships in the Native 
American community. Our scholarship administrator, Indigenous 
Education, Inc. (IEI), received nearly 3600 scholarship applications 
for the current academic year, but the funds available were only 
sufficient to provide scholarships to 600 students. There is some good 
news, however. The Scholarship Program will continue to receive 
additional funds related to the Land Consolidation Program up to a cap 
of $60 million. In addition, the CBOT has invested the funds received 
conservatively, principally in index funds managed by Vanguard, but the 
returns to date have been excellent and have provided more funds for 
scholarships. The availability of additional funding and prudent asset 
management are both critical because CBOT is required to operate Cobell 
Scholarship Program as a perpetual fund.
    The CBOT did encounter several initial hurdles in administering the 
Cobell Scholarship Program. The organization originally selected--
before the CBOT was formed--to handle applications and to administer 
scholarships resigned before the application process even began. The 
next organization selected was overwhelmed by the number of 
applications and was not able to handle scholarship administration in a 
timely or satisfactory manner. Fortunately, CBOT replaced that 
organization earlier this year with IEI, led by Melvin Monette-Barajas, 
who is also testifying today, and IEI has done a superb job in 
administering the Scholarship Program. Moreover, in conjunction with 
replacing the prior administrator, CBOT and IEI jointly proposed that 
the administrative fee be cut in half, from 6 percent per annum to 3 
percent per annum, and that has been done.
    In getting the Cobell Scholarship Program operational and, in 
particular, in working through the changes in administrators, the CBOT 
has had the full support of the Lead Plaintiffs, through their counsel 
Bill Dorris of Kilpatrick Townsend, and the Department of Interior. At 
Interior, the single most critical person has been the Solicitor, 
Hilary Tompkins, who has been extraordinarily helpful to the Cobell 
Scholarship Fund at every turn.
    Thank you, Mr. Chairman. That completes my testimony, and I would 
be pleased to answer any questions that the Committee may have.

    The Chairman. Thank you very much, Mr. Cobell, for sharing 
your testimony with the Committee.
    Mr. Monette?

   STATEMENT OF MELVIN MONETTE-BARAJAS, PRESIDENT/EXECUTIVE 
              DIRECTOR, INDIGENOUS EDUCATION, INC.

    Mr. Monette. Good afternoon, Chairman Barrasso, Vice 
Chairman Tester, members of the Committee. My name is Melvin 
Monette-Barajas, and I am an enrolled member of the Turtle 
Mountain Band of Chippewa Indians in North Dakota and operate 
the Indigenous Education, Incorporated in Albuquerque, New 
Mexico.
    IEI is the approved administrator for the Cobell 
Scholarship Program authorized by the settlement. Indigenous 
Education, Inc. welcomes this opportunity to assist the 
Committee in the oversight of this portion of the Cobell 
settlement. I will quickly summarize my written testimony and 
understand that it will be entered into the congressional 
record.
    As stated, Indigenous Education is a nonprofit scholarship 
administrator created for the expressed purposes of 
administering the Cobell Scholarship Program following the 
resignations of two previous organizations. The opportunity to 
create an organization to give the Cobell Scholarship Program a 
single focus necessary to design the Scholarship Program and 
services that focus on students, Tribes, institutions, and the 
communities was born through the aforementioned resignations.
    The Cobell Board of Trustees has authorized the 
organization and the predecessor to award more than $4.25 
million to nearly 1,000 members of 138 U.S. federally 
recognized Tribes attending 316 nonprofit public and private 
institutions of higher education as they seek full-time 
degrees, vocational education, undergraduate education, 
graduate and professional education. In addition, the CBOT has 
authorized an additional $500,000 for the summer of 2017, in 
which the organization will begin accepting applications in the 
early part of 2017.
    As Mr. Cobell stated, we had over 3,000 applicants, almost 
3,500 applicants. Of those applicants, we were able to fund 640 
students, with a combined average GPA of 3.46. So obviously we 
are looking for and funding highly qualified students, of which 
all 3,000 were highly qualified, making our job extremely 
difficult, but we were able to provide those dollars to those 
students; and we have a number of testimonies from our students 
on our Web site.
    The organization also maintains a waiting list of students 
who we were not able to fund, so, as students and their 
institutions return funds to us, we make sure that the 
allocated dollars are returned to the community and to those 
students, and we will continue doing that through the summer of 
2017. We want to make sure that all the allocated dollars are 
used, and not sitting in a bank somewhere.
    The Scholars group that IEI administered in this fall term, 
640 students attending 249 institutions, are enrolled in 116 
U.S. federally-recognized Tribes and studying 35 different 
major areas.
    The combined scholarship organizations have funded 972 
students, 846 of which were undergraduate and 126 of which are 
graduate students, receiving $3.7 million in total. Another 
$1.5 million staff is currently, as we sit here today, 
administering for the spring term starting in January, as well 
as another $500,000, as I stated, for summer.
    These students claim residence in 41 States, attend 316 
institutions in 44 States, and are enrolled in 133 Tribes whose 
headquarters are in 20 States. Collectively, 208 of these 
students attend 24 of the United States' Tribal colleges and 
universities which are located in 11 States. Six of these 
students were graduate students studying at Tribal colleges and 
universities, leaving 202 graduate students at Tribal colleges 
and universities.
    I have included in my testimony a short list of 
scholarships provided by State. The top 10 States are listed 
there in my written testimony, with Montana, as Mr. Tester 
recognized. One hundred eighteen students are residents of the 
State of Montana, to which $462,613 was provided to those 
students. As you see, it goes down by the number of students 
provided with New Mexico, South Dakota, North Dakota, Arizona, 
Oklahoma, California, Washington, Minnesota, and Wisconsin 
mentioned. As you can also notice, we are doing a pretty good 
job of outreach and coverage to students in what is known as 
Indian Country, and we are very proud of that work.
    We are proud of what we have accomplished to date and look 
forward to continuing the essential work of the Cobell 
Scholarship Program, even after the Land Buy-Back Program has 
concluded, to provide improved educational opportunities for 
American Indian and Alaska Native students, and to enable those 
students to improve their own communities.
    Thank you, Mr. Chairman. That completes my testimony, and I 
would be happy to answer any questions.
    [The prepared statement of Mr. Monette follows:]

   Prepared Statement of Melvin Monette-Barajas, President/Executive 
                  Director, Indigenous Education, Inc.
    Chairman Barasso, Vice Chairman Tester, and distinguished Members 
of the Committee, my name is Melvin Monette-Barajas, I am an enrolled 
member of the Turtle Mountain Band of Chippewa Indians and I am pleased 
to appear today representing Indigenous Education, Incorporated (the 
Organization), the approved administrator for the Cobell Scholarship 
Program authorized by Congress in Elouise Pepion Cobell, et al. v. 
Jewell (the Cobell Settlement). Indigenous Education, Inc. welcomes the 
opportunity to assist this committee in its oversight of the Cobell 
Settlement.
    Indigenous Education is a nonprofit scholarship administrator 
created for the express purposes of administering the Cobell 
Scholarship Program, following the resignation of two previous 
organizations. The opportunity to create an organization to give the 
Cobell Scholarship Program the single-focus necessary to design a 
scholarship program that focused on students, tribes, institutions and 
community was born through the aforementioned resignations. Combined, 
the Organization's President and Executive Director, and the Director 
of Scholarship Programs have over 50 years of scholarship and student 
services experience focused on American Indian and Alaska Native 
students in higher education. The Organization employs five (5) full-
time, one (1) part-time and two (2) seasonal-temporary employees in 
Albuquerque, New Mexico where scholarship processes are conducted via 
Internet, postal service and telephone as necessary. To date, The 
Cobell Board of Ttustees (CBOT) has authorized and the Organization and 
a predecessor have awarded more than $5.25 Million to nearly 1,000 
members of 138 US federally-recognized tribes attending 316 nonprofit 
public and private institutions of higher education as full-time and 
degree-seeking students pursuing vocational, undergraduate and 
graduate/professional degrees. In addition, the CBOT has authorized an 
additional $500,000 for Summer 2017 term and the Organization will 
begin accepting applications for the scholarships within the next few 
months.
    I am the Executive Director of Indigenous Education, Inc., and I am 
both honored and privileged to manage the Cobell Scholarship Program to 
carry out the wishes of the plaintiffs and the late Elouise Pepion 
Cobell to provide resources for access to higher education for Native 
people. I bring to the Organization work in institutions of higher 
education at the Tribal College level, regional and Research 1 
institutions, state government (MN) and nonprofit management, as well 
as board membership as a scholarship advisor to several organizations. 
As a personal commitment, my advocacy comes from my own experiences, or 
lack of experiences, with funding for higher education. I am proud of 
the work that Indigenous Education, Inc. has accomplished in our first 
year in existence.
    We understand and appreciate the financial needs associated with 
higher education for American Indian and Alaska Native students who 
have waited patiently for this scholarship program to be made available 
to them. We also acknowledge that the incentive to sell shares in Trust 
land to grow the scholarship corpus carries with it an unintended 
expectation that the ``selling'' individual, family or tribe will 
receive priority for scholarship assistance. To assist in the 
administration of scholarships, the Organization requests information 
from applicants that will assist staff in identifying these 
individuals; however, in understanding the financial aid process and 
requiring a minimum eligibility for selection, along with deadlines for 
quality management, not all ``sellers'' have received or will receive a 
scholarship without an increase in available scholarship funds. We have 
heard from tribes, families, and students and we are addressing their 
concerns while remaining aligned with industry standards and practices.
The Cobell Scholarship Program and Indigenous Education, Inc. as the 
        Administrator
    Elouise Cobell and a group of advisors advocated for the inclusion 
of a scholarship program to assist Native students to access and 
complete higher education at every level. While it may not have been 
apparent at the time, we now recognize that the Cobell Scholarship 
Program may serve as the principal perpetual legacy of the Settlement. 
This carries with it an awesome responsibility to continuously listen 
to Native students and communities and remain flexible in our 
administration of the program.
    Having assumed the administration two-thirds of the way through an 
academic year, the Organization was charged with closing the year for 
first-year funded students, providing summer term funds to returning 
and new students, opening a new application and process for year two 
(2) of the program, designing all materials, and distributing all 
associated outreach and documents. It was the epitome of the proverbial 
``hit the ground running'' for the organization. At this time, we are 
completing a review and revision of all processes associated with the 
scholarship program and in the coming days, will be launching the 
application process for year three (3) of the Cobell Scholarship 
Program--the Summer 2017 term and the 2017-2018 Academic Year.
    In performing its functions, Indigenous Education, Inc. operates at 
the direction of its Board of Directors--Melvin E Monette-Barajas 
(Turtle Mountain Band of Chippewa Indians), Kelly Fayard (Poarch Creek 
Band of Indians), Clint Carroll (Cherokee Nation) and under the 
direction and oversight of the Cobell Board of Trustees. The 
Organization contracts with Academic Works, the leader in complete 
scholarship management, in utilizing its platform for applicants and 
staff. We also contract our website development and maintenance, 
technology support as needed, and all accounting services.
Indigenous Education, Inc. and the Cobell Scholarship Program 
        Description
    The Cobell Board of Trustees sets the minimum eligibility criteria. 
The eligibility criteria are noted below.
    To be considered eligible for the Cobell Scholarship Program, 
Applicants must be:

  <bullet> Attending or planning to attend a non-profit public or 
        private institution of higher education that is nationally, 
        regionally and industry accredited; and,

  <bullet> Able to submit a completed application of self-reported 
        information by the annual stated deadline; and,

  <bullet> Able to demonstrate academic excellence through submission 
        of a current unofficial transcript and through submission of an 
        Academic Reference; and,

  <bullet> Able to demonstrate engagement in community as demonstrated 
        through submission of a Community Reference; and,

  <bullet> Seeking to obtain one of the following:

        --Vocational diploma, certification, certificate or AAS degree; 
        or,
        --Undergraduate AA, AS, BA, BS or Post-baccalaureate degree; 
        or,
        --Master's, Doctoral or Professional degree.
        --Post-doctoral work is considered on an individual basis.

    Finalists are selected from a pool of all completed applications by 
external reviewers and upon selection must be able to demonstrate that 
they are indeed:

  <bullet> A degree-seeking students attending a non-profit public or 
        private institution; and,

  <bullet> Enrolled full-time in academic study through submission of a 
        course registration; and,

  <bullet> Able to demonstrate financial need by subtracting all known/
        existing resources from the full cost of attendance with an end 
        result in a positive ``unmet need'' per the institution's 
        office of financial aid submission of a Financial Need 
        Analysis; and,

  <bullet> Able to demonstrate US federally-recognized tribal 
        enrollment through the tribe's Office of Tribal Enrollment 
        submission of a Tribal Enrollment Verification.

    Awarded scholars are those students who meet all stated deadlines 
for the post-Finalist status. This group of ``Scholars'' and 
``Fellows'' will receive multiple distributions throughout the regular 
academic year depending on the institution's academic calendar. Several 
of these students are considered ``Honorary'' because the meet all 
eligibility and deadlines but have no demonstrated need. Honorary 
Scholars remain on distribution lists, receive all program updates and 
can access any student service provided by the organization and funds 
can be made available to them if their financial situation changes.
Indigenous Education, Inc. and the AY 16/17 Award Data
    For the Inaugural Summer Scholarship Program 2016 term, 138 offers 
were made with 37 of those returning scholars from the 2015-2016 
academic year. Recognizing the requirement for 80 percent of the 
available scholarship funds to be awarded to undergraduate students and 
the remaining 20 percent to graduate students, 101 undergraduates were 
awarded and 37 graduate students were awarded totaling $366,318. The 
Organization funded students with an overall grade point average (GPA) 
of 3.16 for the Summer term.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    The Organization's first regular academic year process is 2016/2017 
with Summer 2017 yet to be administered. Applicants were required to 
submit an online General Application (demographic information), a 
Tribal Enrollment Form and a Financial Need Analysis to have a complete 
package on file. The latter two forms will be requested only from 
Finalists in the future. All information to complete an application 
package will be self-reported in the future with only Finalists 
requiring verification.
    The Organization received 5540 visitors to the OASIS system of 
which 582 students were funded. These 582 scholars had a positive unmet 
need reported by their office of financial aid. Another 58 students are 
considered ``Honorary Scholars'' due to no or negative unmet need 
reported by the financial aid office, and are invited to participate in 
all scholarship recipient programs. This group of 640 Scholars has a 
combined average GPA of 3.833 as noted on the following page.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Organization maintains waiting lists of students who were fully 
eligible but where all available funds had been exhausted these 
students can receive awards from returned funds, if any become 
available.
    The Scholars group of 640 students attend 249 institutions, are 
enrolled in 116 US federally-recognized tribes and study in 35 
different major areas. The selected scholars are a diverse group.
Combined Scholarship Data
    To date, the Cobell Scholarship Program has provided funded 972 
students--846 undergraduate and 126 graduate students. They have 
received $3,719,667.58 in scholarship awards and another $1,532,748.42 
is allocated for Winter quarter and Spring terms and $500,000 has been 
authorized for Summer 2017 totaling $5.75 million in scholarship 
allocations. These students claim residence in 41 states, attend 316 
institutions in 44 states and England (IE will fund students attending 
foreign institutions so long as they meet all other criteria), and are 
enrolled in 133 tribes in 20 states. Collectively, 208 students 
attend(ed) 24 Tribal Colleges and Universities in 11 states; 6 are/were 
Graduate students, leaving 202 Undergraduate students.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The number of scholars receiving funding through Fall 2016 by state 
of residency for the top ten states includes:



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    State of Residency Graduate Student Count Graduate Student Awards 
Undergrad Student Count Undergrad Student Awards Total Student Count 
Total Student Awards
Conclusion
    We are proud of what we have accomplished to date and look forward 
to continuing the essential work of the Cobell Scholarship Program even 
after the Land Buyback Program has concluded to provide improved 
educational opportunities for American Indian and Alaska Native 
students and to enable those students to then improve their own 
communities.
    Thank you, Mr. Chairman. That completes my testimony, and I would 
be happy to answer questions from the Committee.

    The Chairman. Thank you very much, Mr. Monette. We 
appreciate your taking time with the Committee today.
    Senator Daines?
    Senator Daines. Thank you, Mr. Chairman.
    Chairman Azure, the Land Buy-Back Program has already been 
implemented on the Fort Peck Reservation as a result of the 
consolidation, I believe, of about 40 percent of the 
Reservation's purchasable fractional interests. How has your 
community benefitted economically from the Program?
    Mr. Azure. Basically, the Tribes have leased out the 
majority of the land that we did get from the buy-back, and it 
generated almost $1 million worth of revenue to the Tribes.
    Senator Daines. How much revenue was that?
    Mr. Azure. Almost $1 million of revenue to the Tribes, 
which we utilized for social services programs within the 
Tribes.
    Senator Daines. Vice Chairman Tatsey, could you share how 
you expect the Blackfeet will also benefit economically from 
having a program implemented and having the fractional 
interests consolidated?
    Mr. Tatsey. Well, the potential for purchase for our 
Reservation is over 600,000 acres. Of that, we don't know what 
the real acquisition is going to be; we are anticipating 40 to 
50 percent. But based on those numbers, we anticipate it is 
going to be over $1 million of revenue generated for our Tribe 
to support some of our social, educational, and economic needs. 
A benefit to us as the Tribe looks at some of the long-term 
planning and land use planning for our Tribe, the Tribal 
governance will have opportunity to do some good long-term land 
use planning once we have ownership and have some say in what 
can go on with those properties.
    Senator Daines. Vice Chairman Tatsey, I stepped out because 
I went to a press conference that we did as part of the Senate 
Opportunity Coalition to address the issue of poverty. In fact, 
I cited unemployment rates on the Blackfeet Reservation as an 
example of the challenges we face in Montana which lead to 
poverty. The numbers were staggering. Unemployment rates in 
excess of 50 percent on the Blackfeet Reservation.
    Mr. Tatsey. Yes. That is the conservative number. When we 
are looking at this time of the year, when seasonal employment 
is not available, we are talking 70 percent.
    Senator Daines. Seventy percent.
    Mr. Tatsey. Yes. And that could vary, but when we get 
towards the wintertime of the year and seasonal employment 
slows down, it can get that high, but average around 50 
percent.
    Senator Daines. I think that needs to be continued to be 
talked about.
    Mr. Tatsey. Yes, it does.
    Senator Daines. In fact, Senator Scott, who is leading the 
Coalition, he reiterated these numbers. Sometimes we think 
poverty is related to one part of the Country or perhaps in the 
inner cities, and it is right in the heart of a State like 
Montana.
    Chairman Azure, I would like to get some perspective from 
you around what aspects of the Program you believe are in need 
of improvement, what we could do here to improve or to change, 
make them better. Here you have a chance to share your on-the-
ground experience with this Committee, and we would appreciate 
your thoughts.
    Mr. Azure. One of my main concerns is if we are going to do 
land buy-back for the Reservations, I think we should be 
allowed to buy back fee land, which is wide open out there; and 
there is a lot of it on my Reservation. My Reservation is 
pretty much checkerboard, it is 50-50 with trust land and fee 
land.
    Another thing I would like to see is I would like to see 
the Land Buy-Back extended on our Reservation because we have 
numerous tracts that are still open that are fractionated and 
we have numerous people coming in, after the fact, trying to 
come in and sell their land to us; and what happened is the 
majority of them got their letters and everything, but they 
were wrong when they first sent them in. The information that 
they gave us that we had to give to them was wrong, so they 
basically kind of held back because they thought they were 
getting ripped off. So then after everybody started getting 
their money, they put their application and it was denied 
because it was a late date, it was after the fact. I think that 
would be greatly improved.
    And also for the appraisals, nine-month life on the 
appraisals, if we can extend the life of the appraisals like 
they do in the real world, I think that we would be better off. 
I think if we would basically get us treated basically like the 
real world in this, it would help us quite a bit.
    Senator Daines. I thank you for those specific pieces of 
feedback.
    Vice Chairman Tatsey, in the remaining time I have, which 
is not much, you were nodding your head in agreement. Any other 
thoughts you have as well?
    Mr. Tatsey. Just want to reiterate what Chairman Azure has 
stated; it is something that we discussed and Chairman Azure 
covered them very well. So I just want to expound on what he 
said. It is basically as we move forward, we are going to be 
dealing with the situations. Being last to implement the 
Program has been a benefit to us, but still we see the 
challenges of outreach and contacts and proper applications and 
all those types of things that probably were a big challenge 
for, I am sure, some of the initial Tribes that implemented the 
Program.
    Senator Daines. Thank you for your thoughtful comments.
    The Chairman. Thank you, Senator Daines.
    Senator Tester?
    Senator Tester. Thank you, Mr. Chairman.
    First, I want to thank Mike Connor for his service. When I 
first came here, Mike was working for Senator Bingaman and 
doing a fine job with him, and applied for the job you have 
now, and I supported you in that effort and I have not been 
sorry one day. You have been incredible in the position. I 
serve on Appropriations and I am upset about the fact that we 
don't have the ability to do projects or the appropriations 
process to direct dollars, but I will tell you that you are one 
of the people that gets out and you get to see the projects, 
and you make good recommendations even though you are in the 
Executive Branch. So we thank you for that.
    I have a few questions now, Mike. The first one is there 
has been about $900 million thus far sent out to individual 
landowners. That is money that is sent out to individual 
landowners. Do you have any dollar figure on admin costs to get 
that money out? And if you do, could you tell me how much went 
to the Department of Interior and how much went to Tribes?
    Mr. Connor. I don't have that figure broken out, the 
administrative costs between the Tribes and the Department 
itself. I can tell you I alluded to the fact in my opening 
statement, but we can get you that information for the record.
    Senator Tester. That would be good if you could. I would 
just like to know.
    Mr. Connor. Can I just say, we are 22 percent of the 
administrative costs. The legislation allowed for $285 million 
to be used for administrative costs. We have expended 22 
percent of that, notwithstanding the fact that we are 40 
percent into the timeframe for the Program and we have expended 
60 percent of the money for acquisition purposes.
    Senator Tester. Okay, so you have expended 60 percent of 
the money that is allocated for the Program, so you have a 
little, well, a fair amount less than $900 million that is 
going to go out, and then the Program is done?
    Mr. Connor. We anticipate the Program is going to be done 
by the timeframe contemplated in the legislation 2022, which is 
remarkable that I can sit there and say that with that 
confidence right now because two years ago, when I testified 
before this Committee, one of the concerns was could we run the 
program in an efficient enough way to ensure that we didn't 
return any money to the Treasury. We are not going to return 
any money to the Treasury, and we will expend it by the 
timeframe set in 2022.
    That is why we have taken the opportunity in our latest 
status report to start looking beyond what is left to do, what 
are the ongoing problems associated with fractionation; what is 
the magnitude of the problem. We have a lot more information 
now than we did in 2009, when the legislation was being 
developed, and we know the magnitude of the remaining problem 
and the need to continue on with a program such as we've got in 
place right now if we are going to make long-term meaningful 
progress and create opportunities for Tribes from an economic 
development, cultural protection, essential services program.
    Senator Tester. So going to what Chairman Azure asked for 
an extension of the Program, do you see that as being possible, 
then?
    Mr. Connor. It will take action by Congress. What we have 
tried to do with respect to - there is certainly going to be a 
need if we are going to, because otherwise the great progress 
that we have made over the course of the last four years, as 
demonstrated by the charts that were up earlier.
    Senator Tester. But you will not have the capability to 
extend it, it will have to be done by Congress?
    Mr. Connor. That is correct.
    Senator Tester. Okay. What about extending the life of 
appraisals, is that something you could do? Because that is a 
fairly good point.
    Mr. Connor. It is, but one of the overarching goals is to 
ensure that we acquire these interests at fair market value. So 
that is the reason for the nine month timeframe. We have, and I 
think we need to continue to have a dialogue with respect to 
Indian Country to ensure that at the end of that nine months, 
if there are still outstanding offers, we don't immediately 
start back from ground zero; we can look at the market 
conditions, we can make judgments about whether there is 
ongoing validity to those appraisals, without going back and 
starting anew.
    Senator Tester. Okay. I am going to bounce it around a 
little bit; I am going to go to the other end of the table and 
either Turk or Mel, either one of you guys can answer these 
questions.
    This Scholarship Program is going to be an ongoing 
scholarship program, so you are going to be working off of 
interests, correct?
    Mr. Cobell. I think that is correct, Senator, yes.
    Senator Tester. And is that what you are doing now?
    Mr. Cobell. Yes. We are doing that and a little more. What 
is a little unique about the existing scholarship program and 
format is that we receive quarterly deposits via the Land Buy-
Back Program, and those deposits or transfers vary from 
$100,000 to billions of dollars. At this point, typically you 
would look at the returns you are getting from your fund and 
then use those returns within a point or two and distribute 
those to scholarships. What is difficult for us now is to try 
and estimate what that return is going to be because our 
deposits are so sporadic.
    Senator Tester. I got you. And is it the administrator's 
job to invest the dollars?
    Mr. Cobell. No, that is the Cobell Board of Trustees, as 
the custodian of the funds, to invest those dollars.
    Senator Tester. Okay. And are there any colleges that are 
off limits? Now let me give you an example. You have two-year 
schools, you have four-year schools, you have some for-profits 
that people have some problems with. Is it open to everything?
    Mr. Monette. For-profit institutions are not eligible to 
receive our funds.
    Senator Tester. Okay. And we have heard some examples where 
a person will come in with a scholarship and the university 
will decrease the kind of help that they were giving that 
student. Are you seeing that or is that just a rumor? If you 
are, is there anything you can do about it?
    Mr. Monette. It does happen. Unfortunately, we follow 
Federal student aid guidelines, so a student receives a full 
cost of attendance and then our check shows up, they either 
need to return a portion or all of it to us because of Federal 
student aid guidelines. One of the things we cannot do is 
replace the expected family contribution.
    Senator Tester. Yes.
    Mr. Monette. So that tends to be the largest problem we see 
with our students, is that EFC.
    Senator Tester. Okay, sounds good. Well, thank you.
    I am going to go over to Floyd here for a second. Can you 
tell me what outreach programs work the best for you in Fort 
Peck and could they be improved upon to let people know?
    Mr. Azure. Basically, I haven't seen any outreach programs, 
but in talking to Mr. Monette and Mr. Cobell, they said that 
there are 29 students from the Reservation that got that money. 
The ones I know of got a 638 contract, educational contract 
that we provide scholarships for our students, and we have 42 
of those students still left on my Reservation without a 
scholarship. They are on a waiting list because we expended all 
of our 638 dollars already.
    Senator Tester. Okay. Now I am talking about the Land Buy-
Back Program as far as outreach.
    Mr. Azure. Land Buy-Back, that was on a previous 
administration.
    Senator Tester. No, that is okay. I just wondered are there 
outreach program that you know of that have worked well.
    Mr. Azure. Yes.
    Senator Tester. And maybe ones that haven't worked so well?
    Mr. Azure. I think we pretty much replaced the ones that 
didn't work so well, but that was after the fact.
    Senator Tester. So you are happy with what you have going 
now?
    Mr. Azure. We are working very well, but the first go-round 
everybody kind of got skeptical of what was going on and they 
pulled back from their land sales.
    Senator Tester. All right.
    Mr. Azure. After we corrected it we got a lot of people who 
have come back, but there is a lot of them that didn't.
    Senator Tester. Do you see an opportunity for more Tribal 
consultation with the Department? And, if you do see that, what 
would that look like?
    Mr. Azure. I think that what we are going to have to do is 
we are going to have to work with the people better, because 
they are very skeptical about what the Federal Government does, 
and I think that we should have some people come in. I would 
have to just go through it by finger and show them.
    Senator Tester. There is a little history there.
    Terry, you talked about purchase offers should be made 
available beyond 45 days. You get to give your opinion. How 
long do you think they should be out there for?
    Mr. Tatsey. I think one of the guiding principles behind 
all this is just a good outreach and education program to begin 
with, Senator Tester.
    Senator Tester. Okay.
    Mr. Tatsey. If you did that like we have done that with the 
Pikunii Money Campaign, you educate people, you let them know 
about opportunity and let them know about the potential things 
that can happen if they retain their property, if they sell 
their property, if that had been initiated, that 45-day window 
may have worked. But because they are doing it in conjunction 
with offers, I would say at least a 60-day window would 
probably be fairly adequate, but not meet all the needs.
    Senator Tester. And how was that time decided, that 45? Was 
that a negotiated agreement or was that an agreement that the 
Department came up with? Mike, can you answer that?
    Mr. Connor. The 45-day time period for offers was really 
set up as part of the initial program parameters to ensure that 
we were moving the program effectively and efficiently through 
the process.
    Senator Tester. And you get pressure out of this end to 
make sure things move. Did that come out of consultation with 
the Tribes?
    Mr. Connor. We had consultations when we initially set up 
the Program. I think that was the rub of us trying to move 
forward, where Tribes were trying to establish some longer 
timeframes. I would say it works better now as we do improved 
outreaches, we have done lessons learned, than it did earlier.
    Senator Tester. Okay. Well, thank you.
    And I just want to close and thank the Chairman for being 
so flexible on the time. I want to thank you all for the work 
you do and I want to wish you all a very happy holiday season. 
Thank you for being here.
    The Chairman. Thank you, Senator Tester.
    Secretary Connor, in 2009 this Committee held an oversight 
hearing on the then recent court agreement regarding the Cobell 
Settlement. As with any settlements, there are high and low 
dollar amounts that are discussed, but at the end of the day 
these are negotiated agreement between all the parties 
involved. At the December 2009 hearing, then-Secretary Ken 
Salazar was here. He praised the settlement agreement because 
it created a program to avoid fractionation. Secretary Salazar 
went on to say that if this settlement agreement is not 
enacted, he said, then the estimate $4 million land interests 
would expand to 11 million interest, I think he said by the 
year 2030.
    Now here we are in 2016 with a status report. The 
Administration is recommending an extension of the Land Buy-
Back Program. Could you talk a little bit about the 
Administration's forecast, why it changed on the expanded land 
interests over those years?
    Mr. Connor. Well, I went back and looked at the hearing 
record, and you are correct, there was the expectation that we 
could acquire I think it was up to about $2.6 million in 
aggregate interests. At the end of the day, we are going to 
acquire about $900,000 to $1 million aggregate interests.
    I think that is a product of, I think, the cautions that 
particularly Secretary Hayes provided at that hearing. I think 
he was upfront that we have done a good estimate to look at 
acquiring a great majority of those tracts that have more than 
20 interests involved, but at the same time I think he made 
clear that we were probably in excess of $6 billion to $8 
billion if we were realistically going to deal with this 
program, and I think the number is probably higher than that.
    He did note that the caution in looking at these estimates 
was it all depends on fair market value, what the value of 
those lands were, and ultimately the interest of willing 
sellers to sell that land. So those are the products that I 
think are the difference between the original estimate of about 
$2.6 million interests versus where we are going to be at at 
about $900,000 to $1 million.
    The Chairman. As you pointed out, one of the conditions of 
the Land Buy-Back Program, you just said, is it is strictly 
voluntarily.
    Mr. Connor. Yes, sir.
    The Chairman. It relies on willing sellers who can choose 
to sell some or all or none of their land interests. The data 
from the Program suggests that about the average acceptance 
rate of the offers made is approximately 44 percent. So should 
there be a higher acceptance rate in terms of numbers for the 
Buy-Back Program? And why should Congress continue a program 
that offers solvency rates of only less than half?
    Mr. Connor. Well, I think overall we have improved. One of 
the aspects, and I will be completely up front with you. We 
have gone through a lot of lessons learned, and the outreach 
and the information and the education is critical to the 
process, and it has been critical to increasing that 
participation rate. Now we are up into the 40 percentile area.
    I think the idea is that there are a lot of interests to 
which there will not be offers even made. We are thinking about 
2 million acres overall where they are eligible, but because of 
our resources available to the Program and the desire to get to 
all 105 locations that we have identified, we will not make 
offers on about 2 million eligible acres.
    I think, as you have heard today, landowners who initially, 
because of suspicion, because of concerns about the Program, 
have initially declined offers and I think are rethinking that. 
So I think on those two areas there is reason to believe that, 
if the Program is extended, we can make significant more 
inroads and replicate the success of the Program in its first 
four years.
    The Chairman. Thank you.
    Mr. Monette, in May of this year, in Indian Country Today 
there was an article, you gave an interview regarding the first 
round of Cobell scholarships. We talked a little bit about the 
scholarships today. You indicated your organization was 
awarding $2 million in scholarships for 2016 to 2017 in the 
academic year. We have heard about the incredible demand, the 
number of students, the high GPAs, all those sorts of things 
that you would be happy to see.
    You also made a suggestion that in addition to accepting 
applications from enrolled members of U.S. federally recognized 
Tribes, you have been looking into the need of the descendants 
of enrolled members who are not themselves enrolled. Can you 
explain why the applicant pool should be open to non-enrolled 
Tribal members? And has your organization made any 
recommendations to the Cobell Board of Trustees on that 
suggestion?
    Mr. Cobell. Chairman Barrasso, if I may, I will answer a 
little bit of that. The Cobell Board of Trustees assessed the 
criteria for the administrating organization. Part of that 
criteria is that the applicant must be a member of a federally 
recognized Tribe or Alaskan Native corporation. On a yearly 
basis, even more than that, the Board of Trustees steps back 
and looks at the programs and looks at ways at how we can 
enhance the program.
    One of the things that we heard initially was that the 
scholarships should only be open to class members or 
descendants of those class members. One of the things that we 
identified after hearing that was using a class member or 
descendant of a class member for a tiebreaker situation, if I 
may call it that.
    So we are constantly looking at ways to enhance the 
applicant pool, to enhance the efficiency of the scholarship. 
As of now, the applicants must be a member of a federally 
recognized Tribe or Alaskan Native.
    The Chairman. Could I ask you a follow-up? The settlement 
agreement stipulates that your Board is to govern the 
scholarship funds, and I think we have a good report of what 
you said earlier today. Can you elaborate a little bit on this 
type of Board governance and how your Board interacts with the 
Tribes, particularly those Tribes that are already included in 
the Cobell program and those that have yet to participate?
    Mr. Cobell. Yes. The governance that the Cobell Board of 
Trustees currently has is one of which the settlement agreement 
is unique in the way that funds are received, and I will start 
there. The funds are received on a quarterly basis, as I 
mentioned before. Those funds, per the settlement agreement, 
are sent to the administrative organization which in turn has 
to send those funds to our designated investment funds, which 
in our case now is Vanguard, at our direction.
    It is up to the Cobell Board of Trustees to manage those 
funds in terms of investment portfolios. On an academic year 
basis, we do sit down and make a decision of how much of the 
fund that we are going to disburse for scholarships and that we 
in turn send that amount of funds to the administrative 
organization.
    It is kind of a cumbersome process in that regard, but as 
far as consultations to Tribes the administration organization 
is really plugged into the applicants that are applying in 
terms of questions, in terms of forms, in terms of the overall 
process, more so than the Cobell Board of Trustees. The Cobell 
Board of Trustees is primarily responsible for the fiduciary 
responsibility of those funds and to ensure that the 
administrative organization is executing disbursement of those 
scholarships based on our criteria and based on our direction.
    I hope that answers your question.
    The Chairman. Yes. Thank you.
    Senator Lankford?

               STATEMENT OF HON. JAMES LANKFORD, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Lankford. Mr. Chairman, thanks for your leadership 
in this Committee.
    Gentlemen, thank you for being here. Let me give you a real 
world situation and talk about fractionated lands and some of 
the issues. Southwest Oklahoma, I can take you to a town where 
we have highly fractionized land. A home is abandoned; you have 
windows broken, it becomes a dangerous situation; weeds 
overgrown or a building or an outbuilding becomes an area where 
there is crime in the neighborhood and such.
    Typically, a city would go in and just abandon that 
property, would declare it abandoned and would clear the 
property. They can't do that in this situation. The Tribes 
often also feel like they can't do that, and if BIA hesitates, 
that city, that county and that neighborhood has no real 
solution to something that is becoming a magnet for crime.
    That is prime area for this Land Buy-Back. So the question 
that the cities and the counties ask me is how do we get into 
the process; how do we help in participation; what do we need 
to do to be able to get to the top of the list. So my question 
is how do you determine what is top of the list, what is the 
low hanging fruit where you have not only voluntary 
participation, but eager participation of cities, counties, 
Tribes, and communities that say this is a problem. This is 
really what the Program was designed for. How do we help with 
that?
    Mr. Connor. Senator, I am assuming that is directed at me.
    Senator Lankford. Yes, sir.
    Mr. Connor. I appreciate the question. I think it is a very 
good question and I appreciate the real world example.
    The criteria for how we have looked at which locations that 
we are moving to, which Reservations, was developed in 
consultation with Tribes, and there were a number of 
parameters: the number of fractionated interests, the 
efficiency with which we can run the Program, the interest of 
the Tribe, the interest of landowners, and a number of factors 
along those lines.
    The Oklahoma situation, the Oklahoma Tribes are now on our 
list of 105, so we intend to move towards those locations.
    Senator Lankford. All of the Tribes or just Oklahoma in 
general?
    Mr. Connor. I think it is the five Tribes.
    Senator Lankford. We have 39.
    Mr. Connor. The ones I am talking about, Choctaw, 
Chickasaw, Seminole, Cherokee, and I am missing one.
    Senator Lankford. Muskogee Creek?
    Mr. Connor. Yes, sir. So there is a 1947 Act, there are 
special rules. We are trying to methodically work through how 
we run this Program on those lands. The recordkeeping is 
different on those lands; the fact that we need to go through a 
judicial proceeding to change title on those lands. All these 
things we are methodically moving forward. We need to stay in 
close contact with your office as we work through these issues 
to try and work through how we efficiently run this Program, 
and we may need some help, quite frankly.
    Senator Lankford. Which I am glad to. If we can pause 
there, because that is the Stigler Act, and I want to be able 
to talk a little bit about the five Tribes and some of the 
issues.
    This particular situation in Southwest Oklahoma is not in 
that area; it is not one of those five civilized Tribes, it is 
some of the other 34 Tribes that we have in the State. I guess 
my question is how do we help in the process. The Tribe wants 
to be engaged and is engaged. How do we help lift people off 
the list? Because that becomes a high interest for the whole 
community to be able to deal with this, and my concern is that 
we are going to debate about getting onto the list and 2022 is 
going to come and go.
    Mr. Connor. I think on this particular matter if we can 
work directly with you and understand where this location is, 
who is involved, and try and see what we can do, Senator, I 
think that is the best opportunity.
    Senator Lankford. That would be terrific.
    Then let me switch over to the Stigler Act and the five 
civilized Tribes area, because our understanding, and your team 
has been great with working with my staff and with the staff of 
Senator Inhofe and all of our congressional delegation. What do 
we need to fix legislatively and how quickly do we need to get 
that language in place so that the five Tribes can be engaged 
and helpful before the 2022 deadline?
    Mr. Connor. I think those are the issues that are being 
looked at by our legal office, consulting with the Tribes. I 
can look for a status on where we are at to try and get you 
that information as soon as possible. I would assume at this 
point we would try and tee up something with respect to 
recommendations and analysis for you for the start of the next 
Congress.
    Senator Lankford. Okay, so those recommendations are still 
pending. Are there any of those that you can talk through today 
or legislative recommendations to be able to do a fix here, or 
those are things you can get me in writing and work with our 
staff?
    Mr. Connor. I think we are going to have to do that in 
writing and work with your staff. I am not prepared today. 
Thank you.
    Senator Lankford. That is great. No, I understand. We will 
be able to follow up on that quickly in the days ahead because, 
again, time is of the essence in all this.
    Mr. Chairman, thank you. I yield back.
    The Chairman. Thank you, Senator Lankford.
    Well, if there are no more questions for today, members may 
also submit follow-up written questions for the record. The 
hearing record will remain open for two weeks.
    I want to thank the witnesses for their time and their 
testimony today.
    Mr. Tatsey, I certainly want to, once again, thank you for 
sharing the story of your uncle, George Tatsey, who lost his 
life 75 years ago today at Pearl Harbor and made the ultimate 
sacrifice for our Nation. I want to thank you on behalf of the 
United States Senate for the sacrifices of him and others who 
have additionally committed their lives for our freedom.
    I would also like to take a moment to thank my staff for 
their work this Congress. I asked and expected a high work 
output from them based on the number of hearings we had, the 
bills that we reported out, the oversight that we conducted. 
They certainly met my expectations and more. They are an 
outstanding group of people and I am very proud of them and 
their efforts that they put forth on behalf of the Committee. 
They are Mike, Rhonda, Brandon, Emily, John, Jacqueline, 
Natasha, Mike, Hanna, and Brian. So I want thank each and every 
one of you for the remarkably good job that you have done.
    With that, the hearing is adjourned.
    [Whereupon, at 4:05 p.m., the Committee was adjourned.]

                            A P P E N D I X

   Prepared Statement of Hon. Al Franken, U.S. Senator from Minnesota
    Thank you, Chairman Barrasso and Vice-Chairman Tester for holding 
this oversight hearing, and thank you to our witnesses for coming 
today.
    As we approach the end of the 114th Congress, I want to take a 
moment to recognize Chairman Barrasso and Vice-Chairman Tester for 
their leadership of this Committee and their dedication to serving 
Indian Country.
    The Indian Affairs Committee is not the most high-profile 
committee. But the issues that we work on as members of this Committee 
are absolutely crucial.
    Almost every week, we hear from tribal leaders from across the 
country about the challenges their communities are facing. When we 
think about all these challenges, it can be frustrating. But knowing 
that there are people like Chairman Barrasso and Vice-Chairman Tester 
who work hard on behalf of Indian Country gives me hope.
    So, thank you Chairman Barrasso and Vice-Chairman Tester for your 
commitment, and for your guidance of this Committee.
    And to our new Chairman and Ranking Member, I look forward to 
continuing to work with you in the next Congress.
                                 ______
                                 
  Prepared Statement of Hon. Gary Burke, Chairman, Board of Trustees, 
         Confederated Tribes of the Umatilla Indian Reservation
    Good afternoon Chairman Barrasso, Vice Chairman Tester, and Members 
of the Committee, my name is Gary Burke and I am Chairman of the Board 
of Trustees, the governing body of the Confederated Tribes of the 
Umatilla Indian Reservation (CTUIR). I appreciate the opportunity to 
provide testimony on the Department of Interior's implementation of the 
Land Buy-Back Program (LBBP). We view the LBBP as an historic 
opportunity to restore CTUIR ownership of Reservation lands as intended 
in our Treaty of 1855.
    Pursuant to Article I of our Treaty, the CTUIR ceded 6.4 million 
acres of its aboriginal lands in exchange for the Umatilla Indian 
Reservation, which was set aside for the ``exclusive use'' for the 
Cayuse, Umatilla and Walla Walla tribes. However, due to failed federal 
policies of the past, we lost over two-thirds of our Reservation land 
base. The CTUIR has long prioritized the restoration of the Reservation 
land base set aside in our Treaty, and the LBBP has played a critical 
role in accomplishing that important goal.
    The loss of our Reservation land base occurred shortly after our 
Treaty was ratified in 1859. In 1882, Congress severed 640 acres from 
the western end of the Reservation to facilitate the growth of the City 
of Pendleton. In 1885, two years before the General Allotment Act 
became law, Congress passed the Umatilla Allotment Act which allotted 
and diminished our Reservation. The Act diminished the Reservation by 
opening up some 90,000 acres of Reservation land for sale to settlers. 
The allotment of our Reservation resulted in the loss of approximately 
one-half of Tribal lands within the diminished Reservation to non-
Indian ownership due to probate, land sales and tax foreclosure. By the 
100th anniversary of our Treaty in 1955, we had lost one-third of our 
Reservation due to diminishment and another third to non-Indian 
acquisition of allotments issued to Tribal members.
    The allotment of our Reservation has also resulted in fractionated 
ownership of the individual allotments issued to Tribal members. 
According to the Updated Implementation Plan for the LBBP, the Umatilla 
Indian Reservation is the 28th most fractionated Reservation, with 
1,015 fractionated allotments totaling 66,945 acres which contain 
18,828 purchasable fractional interests. Fractionated ownership of 
these lands makes use and management of these lands difficult, and in 
many cases impossible. We have also learned that a large percentage of 
the owners of these fractionated interests are Indians that are not 
enrolled in our Tribe. For example, when we renegotiated a pipeline 
right-of-way (ROW) that traversed some 13 miles through our Reservation 
in the late 1990s, approximately two-thirds of the owners of the 
allotments burdened by the ROW were Indians enrolled in tribes other 
than the CTUIR. While the Umatilla Indian Reservation may have been 
established as the exclusive homeland for the CTUIR, we had become 
minority landowners on our own Reservation.
    For the past three decades, the CTUIR has dedicated considerable 
resources to the restoration of our Reservation land base. We have 
enacted laws, dedicated Tribal revenues and developed Tribal programs 
to reacquire Reservation lands within our Treaty Reservation boundary 
and to prevent the loss of Tribal trust lands upon the death of Indian 
landowners.
    The LBBP provides a means to restore Tribal ownership of 
fractionated interests in trust allotments. Our Tribe has prioritized 
400 fractionated allotments, out of a total of approximately 1,300 
allotments on the Reservation, for acquisition under the LBBP. These 
prioritized allotments were heavily fractionated, had a large 
percentage of ownership by Indians enrolled in tribes outside of our 
own, or otherwise had important cultural, natural resource or economic 
and community development significance.
    The CTUIR was eager to have the LBBP implemented on our 
Reservation. We were one of the first Tribes to execute and implement a 
Cooperative Agreement with the LBBP that defined and funded the work we 
performed to implement the Program. We believe the implementation of 
the LBBP under our Cooperative Agreement was a success.
    Under the LBBP implemented on our Reservation in 2014-2015, we 
fully expended our $12.3 million purchase ceiling to acquire 10,172 
equivalent acres on 547 allotted tracts. These acquisitions increased 
the Tribal ownership of allotments that are critical to economic 
development, contain important natural resources, cultural sites or 
were unusable because they were so heavily fractionated.
    While the LBBP has been fully implemented on our Reservation, we 
offer the following comments to the Committee based on our experience 
in the Program:

        1.  The LBBP has not eliminated the problem of fractionated 
        ownership of allotted trust land. As Chairman Barrasso stated 
        in his opening comments at the December 7th hearing, the $1.9 
        billion LBBP ``was not enough'' to remedy the fractionated 
        allotment problem. Chairman Barrasso appropriately cited the 
        Interior Department's recent LBBP Status Report that found that 
        the level of fractionation will return to pre-LBBP levels if it 
        is not continued. We urge the Committee to support Tribal 
        efforts to fund a continuing program to purchase fractionated 
        interests in allotted trust lands.
           The CTUIR proves that such continued funding is needed. 
        During the course of the LBBP implementation on our 
        Reservation, we were only able to purchase interests on 40 
        percent of the allotments on our Reservation. We have much more 
        work to do, and many more willing sellers of allotted trust 
        lands. We call upon the Committee to support a permanent 
        reauthorization of the program for the acquisition of 
        fractional interests in the Indian Land Consolidation Act of 25 
        U.S.C.  2212-2215.

        2.  The CTUIR is aware that many tribes have been unable to 
        fully expend their purchase ceiling under the LBBP. We have 
        notified Department of Interior officials that the CTUIR has 
        the ability to utilize unexpended LBBP funds to purchase 
        additional fractionated interests in trust allotments on our 
        Reservation. Our Land Program has been contacted by numerous 
        land owners who would be willing sellers of their allotment 
        interests. The Committee should insist that the LBBP be 
        transparent in the expenditure of LBBP funds on each 
        reservation and on the process that will be used to allocate 
        unexpended LBBP funds before the 2022 deadline.

        3.  We believe that Land Buy-Back funds should be made 
        available to reimburse tribes for the purchase of fractionated 
        trust allotments under tribal probate or inheritance codes. 
        Under our CTUIR Inheritance Code, enacted under the Indian Land 
        Consolidation Act, we have the right to prevent the transfer of 
        trust lands by will or intestacy to a non-member of the CTUIR 
        upon the payment of fair market value. We have requested that 
        the LBBP reimburse our acquisitions under this Code dating back 
        to the federal court approval of the Cobell settlement in 
        November 2012. The LBBP never agreed to this request. The CTUIR 
        believes our request should have been granted because these 
        probate acquisitions achieve the objectives of the LBBP by 
        acquiring fractionated interest in trust lands and transferring 
        ownership to the Tribe at fair market value as determined by 
        the Department of Interior. Unexpended LBBP funds referenced in 
        comment 2, above, could be allocated to this reimbursement.

        4.  The LBBP needs to provide more information to affected 
        tribes on the roll-out of the Program in Indian Country. It 
        would have been helpful for us to learn about what had worked, 
        what had underperformed and what had failed in the 
        implementation of the LBBP on other reservations. The CTUIR and 
        other participating tribes have a shared interest with the LBBP 
        in the success of the Program. All tribes want to learn from, 
        and benefit by, the successes (and the failures) of other 
        tribes participating in the LBBP.

        5.  Effective LBBP implementation on a reservation requires 
        good communication with owners of allotments on that 
        reservation. As the CTUIR experience proves, many owners of 
        allotments on one reservation live on neighboring reservations. 
        The LBBP needs to provide better information on the schedule 
        for LBBP implementation on a reservation to surrounding tribes. 
        With this information, our Land Program staff can provide 
        better responses to land owner questions about the LBBP 
        occurring on neighboring reservations.

        6.  The Department of Interior needs to commit the necessary 
        personnel to ensure the timely implementation of the LBBP. We 
        experienced delays in the review and approval of our appraisals 
        of the fractionated trust allotments that we had prioritized 
        for purchase under the LBBP. These reviews were conducted by 
        the Office of Appraisal Services (OAS). The timing of outreach 
        efforts, the appraisal of the allotments and the schedule for 
        mailing out offers are dependent upon a timely review and 
        approval of the appraisals by OAS.

    The success of the LBBP will do much to improve Tribal sovereignty 
and economic self-sufficiency. With increased Tribal ownership of trust 
allotments, and the associated decrease in fractionated ownership, we 
will be better able to use our Reservation land base to meet the needs 
of our Tribal members. The United States will also benefit under the 
LBBP due to the reduction in costs associated with the probate of these 
fractionated interests and the management of IIM accounts that hold the 
income generated on these trust allotments. Most importantly, the LBBP 
is a small but important step by the United States to honor our Treaty 
and to reverse the failed allotment policy of the 19th century.
    This completes my testimony. Once again, on behalf of the CTUIR, I 
appreciate the opportunity to provide our perspectives on the LBBP. We 
look forward to working with the Committee and the LBBP to ensure its 
success in Indian Country, and its continuation beyond the year 2022.
                                 ______
                                 
 Prepared Statement of Hon. Troy Scott Weston, President, Oglala Sioux 
                                 Tribe
Introduction
    The Oglala Sioux Tribe is pleased to submit testimony for this 
important oversight hearing entitled, ``Examining the Department of the 
Interior's Land Buy-Back Program for Tribal Nations Four Years Later.''
    The Oglala Sioux Tribe is a part of the Great Sioux Nation. Our 
rights, the United States' obligations to us and our unique political 
relationship with the United States are set forth in a series of 
treaties through 1868. Our Pine Ridge Reservation is massive; it 
encompasses over 2.7 million acres of land in the southwest corner of 
South Dakota. These lands are part of the lands reserved in our 
treaties as our permanent homes and for our absolute and undisturbed 
use and occupation. Unfortunately, violations of our treaties, the 
imposition of the Allotment policy and settlers' encroachments have 
damaged the integrity and benefits of our lands which we hold sacred. 
Implementation of the repudiated and unwise Allotment policy caused our 
Reservation lands to become unbelievably fractionated through the 
generations, and we have suffered from that policy's long-lasting 
negative effects. Some of our members own just a ``spoonful of land.'' 
This land, however, is important to them as land is highly valued among 
our members and is traced back to our treaties and before.
    The Oglala Sioux Tribe was the first tribe to enter into a 
cooperative agreement with the United States Department of the Interior 
(Interior or DOI) for the implementation of the Cobell Land Buy-Back 
Program (LBBP or Program). To date, the Program has provided beneficial 
results for our Pine Ridge Reservation. However, much more work is 
required if we are to truly address the menacing problem of 
fractionated interests on our lands.
Pine Ridge Reservation and Implementation of the LBBP
    Interior's Dec. 18, 2012 Initial Implementation Plan for the LBBP 
listed our Pine Ridge Reservation as the most highly fractionated 
reservation in all of Indian Country. It was listed as number one on 
Interior's ``Top 40 list.'' The magnitude of our fractionated interest 
problem is enormous. It hinders our economic development, planning, 
cultural and natural resources preservation and governance. 
Fractionation also hinders our members' efforts to make their lands 
useful.
    Faced with such a massive problem, our Tribe has been engaged with 
purchasing fractional interests and land consolidation efforts for 
decades, long before the LBBP was established. Our Tribal Council has a 
Land Committee and we have long had a strong Land Office. Thus, when 
Interior's draft LBBP Plan was issued in 2012, we took great interest 
as we had a lot of experience--through the Indian Land Consolidation 
Act (ILCA) and other programs, including the Farm Service Agency (FSA) 
loans--in efforts to consolidate lands and stem further fractionation 
on our Reservation. At that time, we encouraged DOI to use the Tribe's 
experience and knowledge about its lands and to rely on tribes for how 
best to successfully implement the Buy-Back Program on their 
reservations. Further, we asserted that tribes should be allowed to 
design and implement their own plans for reducing land fractionation. 
We also asserted that the LBBP should be implemented pursuant to the 
Indian Self-Determination and Education Assistance Act. Finally, we 
asserted that the Trust Land Consolidation Fund be placed in an 
interest-bearing account so more monies could be generated for land 
consolidation activities.
    According to Interior's Initial Implementation Plan for the LBBP in 
2012, Pine Ridge had 5,982 fractionated tracts with 194,401 purchasable 
fractional interests that represented 1,194,669 acres of land. Again, 
our Reservation is the most highly fractionated as recognized by 
Interior. Interior's Initial Implementation Plan set forth a ``purchase 
ceiling'' of $126 million for purchasing fractionated interests on our 
Reservation. Interior's Updated Plan dated November 8, 2013 set the 
purchase ceiling for Pine Ridge at $125.4 million. We have consistently 
stated that the entire purchase ceiling amount must be spent on our 
Reservation.
    We entered into a cooperative agreement with Interior in September 
2013. While we asserted our desire and capability to carry-out all four 
phases of Interior's Plan (Outreach; Land Research; Valuation and 
Acquisition), we, ultimately, participated only in the Outreach phase. 
This phase, however, was critical to whether the Program would succeed.
    Under our first LBBP cooperative agreement, we hired 12 employees, 
accessed necessary program equipment, and carried-out the planned 
Outreach activities. These activities included identifying landowner 
contact information, developing and enhancing communication tools to 
notify owners about the Program, conducting face-to-face meetings, and 
creating educational tools about the Program. Achievements under our 
first cooperative agreement included more than 18,000 purchase offers 
being made; more than $81.5 million being paid to selling landowners; 
and the consolidation of the equivalent of 233,000 acres of land for 
the Tribe.
    We entered a second cooperative agreement with Interior to extend 
the implementation of the LBBP on our Reservation. This second 
agreement covered 6 employees to conduct the Outreach services to 
potential sellers and lasted for seven months. Interior's 2016 Status 
Report showed that for Pine Ridge, in total, 20,622 individuals 
received purchase offers and 9,319 individuals accepted the offers for 
a total amount of $110,395,928. The amount of fractionated interests 
that was purchased is equivalent to 292,774 acres of Tribal lands. The 
effort reduced the fractional interests to 120,966.
    A highlighted benefit conveyed by both the Tribe and Interior is 
that we plan to construct several new buildings in our Wakpamni Lake 
Community on land that has been consolidated through the LBBP. These 
buildings will include office space, a conference room, a civic center, 
a day care, and food distribution storage. Furthermore, we are planning 
a housing program that is facilitated by our land acquisition under the 
Program.
    We are confident that our Outreach activities were a necessary 
component for successful implementation of the LBBP on the Pine Ridge 
Reservation. We believe that having tribal members explain the Program 
and its process to fellow members was crucial to the Program realizing 
beneficial results on our Reservation, especially in light of our 
unique language and cultural considerations. We stand ready to team up 
with Interior and participate in the Program again.
Implementation Considerations and Needs Going Forward
    We support the Deputy Secretary of the Interior's testimony to the 
Committee stating that long-term strategies are needed for land 
consolidation. Land consolidation promotes tribal sovereignty and 
governance. It also facilitates tribal land use and economic 
development, which is critically needed on our Reservation. We plan to 
continue our on-going efforts to consolidate our land base. One central 
objective is to participate in the LBBP again. We have much more work 
to do to address the issue of, and problems arising from, fractionation 
on our Reservation.
    From the beginning, we have stated that the purchase ceiling for 
Pine Ridge must be spent on Pine Ridge. Interior identified $125.4 
million as a purchase ceiling for the Pine Ridge Indian Reservation. 
This evidences Interior's recognition of our Reservation's severe 
fractional interest problem. Interior must do everything in its power 
to expend our purchase ceiling on our Reservation. Funding identified 
for Pine Ridge should not be spent elsewhere. This will take 
willingness from Interior to work closely with us and our members every 
step of the way, and, fundamentally, a commitment to return to our 
Reservation to continue our cooperative efforts together. At the end of 
our second cooperative agreement, approximately $ 15.031 million 
remains in the purchase ceiling. Interior should return to our 
Reservation to spend these monies and enter another cooperative 
agreement with us so we assist in the process.
    There also must be adequate time for the Program to successfully 
work on the Pine Ridge Reservation. Per the Claims Resolution Act, the 
LBBP is authorized for a period of ten years. Our view is that efforts 
should be ongoing on Pine Ridge throughout the Program's ten-year 
authorization. Our Land Office consistently receives inquiries from 
potential sellers about the possibility of the Tribe purchasing their 
interests. Other tribal members may not currently be ready to sell, but 
they might be in the near future. The LBBP should operate in full 
during the length of its lifetime; this should include ongoing 
implementation on Pine Ridge, the most highly fractionated reservation, 
especially in light of the fact that there is still approximately $15 
million left in our purchase ceiling.
    Trust Land Consolidation Fund monies should not be returned to the 
United States Treasury at the end of ten years. The LBBP was agreed to 
by the Cobell case parties as part of the settlement of the Cobell 
case. The Program is a monumental effort to address the severe 
fractionation of Indian lands and the many problems that it creates. 
The Program should not be limited by a finite time period and ``use-it-
or-lose-it'' framework. Tribes and Interior must have the time needed 
to do everything they can to address the serious fractionation problem. 
This includes time to spend all the Trust Land Consolidation Fund on 
this effort. It also includes spending all of the monies earmarked for 
the Program's administrative costs, which totals $265 million. These 
monies should be spent on administrative costs and purchasing 
interests, and no part of them should be returned to the United States.
    Any Fund monies that remain should not be returned to the United 
States Treasury at the end of the ten year period. First of all, the 
LBBP should be extended. While benefits have resulted from the LBBP, 
there is much more work at hand to truly address the fractionated 
interest issue on our Reservation and across Indian Country. Thus, any 
remaining Fund monies should be used in an extension of the Program. 
The Fund was agreed to as part of the Cobell Settlement. Thus, it would 
be tragic to have any of such monies returned to the Federal 
Government, the party responsible for mismanaging the trust accounts 
and imposing the devastating allotment policy in the first place. 
Second, the Fund monies should be used to purchase fee lands or large 
tracts within reservations as identified by the tribes as part of their 
overall land consolidation efforts.
    Finally, we agree with the concept of the Scholarship Fund. 
However, our tribal members have not benefited from the Fund to the 
extent they should in light of the Scholarship monies that were 
generated from our participation in the Program. Our view is there 
should be an effort to distribute such monies to regions in proportion 
to the region's generation of such monies.
Conclusion
    We appreciate the opportunity to submit written testimony for the 
record for this important oversight hearing. We are grateful for the 
Committee's focus and interest in the Buy-Back Program, and look 
forward to working with it and the Department of the Interior as the 
Program continues and long-term land consolidation strategies are 
developed.
                                 ______
                                 
   Prepared Statement of Hon. Liana Onnen, Chairwoman, Prairie Band 
                           Potawatomi Nation
    The Prairie Band Potawatomi Nation (the ``Nation'') is pleased to 
provide written testimony for the United States Senate Committee on 
Indian Affairs' December 7, 2016 hearing entitled ``Examining the 
Department of the Interior's Land Buy-Back Program for Tribal Nations, 
Four Years Later.'' Our participation in the Department of the 
Interior's (DOI) Land Buy-Back Program (LBBP) provided substantial 
support to our effort to combat the issue of fractionated land 
interests on our Reservation. However, much more is needed if we are 
truly going to conquer this vexing problem. We set forth information 
below about how the LBBP worked for us followed by certain 
recommendations for the Committee to consider.
    To fully understand the importance of the LBBP one must look at how 
fractionated interests in land developed. The General Allotment Act and 
subsequent allotment acts attempted to assimilate Native people by 
awarding lands held collectively by Tribes to individual Indians, and 
sold ``surplus'' lands to non-Indians. Congress soon realized the 
failure of the Allotment Act and ended it by passage of the Indian 
Reorganization Act. Unfortunately, the damage had already been done. 
Tribes lost enormous amounts of land they previously owned, and 
individual Indian allottees and their heirs soon lost meaningful 
management authority over their allotted lands due to the onset and 
continuous growth of fractionated ownership.
    Land tracts with multiple co-owners make it extremely difficult to 
obtain the required approvals for leases and other uses. As a result, 
numerous tracts are unoccupied and not used for any purpose. Instead, 
they sit dormant; their potential not being realized. In addition, the 
resulting checker-board nature of land ownership has created challenges 
for the Nation that impact our sovereignty, self-determination and 
efforts toward economic development and land use. Fractionated 
ownership also makes it difficult to protect and access sacred and 
cultural sites. While Congress has attempted to correct the problems 
arising from allotment, none of its efforts have provided the critical 
funding sufficient to restore Tribal land bases.
    In 2010, Congress enacted the historic legislation to ratify and 
confirm the 2009 Cobell Settlement. The Claims Resolution Act provides 
a foundation for addressing the fractionation of Indian lands that 
occurred under the policies of allotment and assimilation. In the Act, 
Congress established the Trust Land Consolidation Fund to purchase, on 
behalf of tribes, fractionated interests in trust from willing 
individual sellers on their reservations at fair market value. The 
purchased interests are transferred to the tribes. The Trust 
Consolidation Fund totaled $1.9 billion to be administered by the DOI 
through the LBBP.
    As described in the DOI's November 2014 status report, within our 
Reservation there were approximately 323 fractionated tracts of land, 
comprising 18,004 acres with 9,618 purchasable fractional interests and 
2,204 associated unique landowners. To address the impacts of the 
fractionated land base, in December 2014, our Nation submitted an 
application to participate in the LBBP through a cooperative agreement 
with the DOI. Per the cooperative agreement, we assisted the DOT in 
purchasing fractionated interests on our Reservation by engaging in (a) 
preand post-offer outreach; (b)() identifying interested sellers; (d) 
notifying owners of the opportunity to sell; and (e) identifying 
addresses and updating owner contact information.
    The DOT capped tribal administrative costs at $148,796.00 for our 
activities; set our land purchase ceiling at $4,352,826.00; and set the 
offer cut-off date for individual sellers as June 8, 2015. We had the 
first official event, a public meeting, on the Reservation in February 
2015. Through the course of participating in the LBBP, the Nation: (1) 
employed three staff, (2) held three public meetings in Kansas, (3) 
held two public meetings in Wisconsin, (4) held an additional total of 
18 outreach events on the Reservation, and (5) had a total of 265 
attendees sign in at these events. By final closeout of our cooperative 
agreement at the end of September 2015, 1,656 individuals received 
offers totaling $10,651,031.00 and 682 individuals accepted for a total 
of $5,157,029.00. This represented 3,299 equivalent acres purchased for 
the Nation through the Program.
    The LBBP provided benefits to our Nation as it reduced the 
fractionation of undivided interests on our Reservation. We have 
attached a ``before and after'' map showing the results of the LBBP on 
our Reservation. The Program was conducted with no cost to the Nation. 
Our administrative costs were reimbursable and the funds to purchase 
the interests were provided by the United States through the Trust Land 
Consolidation Fund. In addition, the LBBP has tripled tribal lease 
revenues from our trust lands. The Nation's increased ownership of 
undivided interests in tribal trust lands has increased the Nation's 
revenues from $53,508.29 in 2013 to $166,784.62 in 2016. It is 
important to realize, however, that the LBBP is limited in scope, and 
that more is necessary to combat our fractionated interest issue.
    The Nation had 323 eligible tracts with a combined 9,618 
purchasable fractionated interests with an estimated value of 
$25,202,984. The LBBP, for our Reservation, only had offers accepted on 
155 tracts. This left 168 eligible tracts, more than 50 percent of the 
fractionated land, with no consolidation through the LBBP. While the 
LBBP helped reduce fractionation, it by no means eliminated it. Only 
one tract was completely purchased by the Nation; thus, eliminating 
fractionation only on that one tract. To eliminate fractionation on our 
Reservation, we need our participation in the LBBP to be extended, and 
the United States needs to fully commit to land consolidation efforts.
    Based on our experience with the LBBP, we recommend the following:

  <bullet> Extend offer deadlines. The six months allowed for 
        landowners to respond was not long enough. It took time for 
        potential sellers to become familiar with the LBBP and 
        comfortable with the idea of selling their interests. Some of 
        our members wanted to sell after the LBBP ended on our 
        Reservation.

  <bullet> Provide more resources for Outreach activities. We could 
        have done more outreach for the LBBP if more resources were 
        provided. With more resources, we would have been able to make 
        follow-up calls to those who were undecided about selling their 
        interests or uninformed about the LBBP or its process. This 
        could have facilitated more sales prior to the deadline.

  <bullet> Provide resources for other efforts to combat the 
        fractionated interest issue. We engaged in other efforts to 
        combat the fractionated interest problem on our Reservation. 
        For example, we conducted a Wills Workshop to help our members 
        prepare wills in an effort to reduce future fractionation. 
        Tribal members who pass without wills will create the same 
        fractionation problem the LBBP is trying fix. The United States 
        needs to dedicate resources to a variety of efforts aimed at 
        reducing fractionation.

    The LBBP has made positive changes for the Nation. However, more 
work is required. We realize that the LBBP has a statutory end date. 
All the progress that has been achieved must be protected by extending 
the LBBP beyond its expiration. Furthermore, a necessary component to 
such an extension is adequate funding. Congress should include 
sufficient funding in the DOI's budget to allow all interests to be 
purchased from willing sellers. Purchasing some of the undivided 
interests is only a band-aid fix: a delay in the land fractionation 
problem. Over time we will be in the same position with our 
fractionation if we do not engage in a concerted, dedicated effort to 
eradicate fractionation once and for all. This will take a serious 
commitment to land consolidation. The LBBP must have more time and the 
sufficient amount of money to fix the problem the Federal Government 
created through its misguided allotment and assimilation policies.
    The Nation thanks you for the opportunity to provide written 
comments to the Senate Committee on the impacts and future needs of the 
Land Buy-Back Program.
                                 ______
                                 
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                  [all]
</pre></body></html>
